<html>
<title> - A REVIEW OF LICENSING AND CREDENTIALING STANDARDS FOR SERVICEMEMBERS AND VETERANS: DO BARRIERS STILL REMAIN?</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]



 
 A REVIEW OF LICENSING AND CREDENTIALING STANDARDS FOR SERVICEMEMBERS 
                AND VETERANS: DO BARRIERS STILL REMAIN?

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                      THURSDAY, SEPTEMBER 10, 2015

                               __________

                           Serial No. 114-36

                               __________

       Printed for the use of the Committee on Veterans' Affairs
       
       
       
       
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       
       
       


         Available via the World Wide Web: http://www.fdsys.gov
         
         
         
         
                             _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 98-691                 WASHINGTON : 2016       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                 
                  
         
         
         
         
         
                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

DOUG LAMBORN, Colorado               CORRINE BROWN, Florida, Ranking 
GUS M. BILIRAKIS, Florida, Vice-         Minority Member
    Chairman                         MARK TAKANO, California
DAVID P. ROE, Tennessee              JULIA BROWNLEY, California
DAN BENISHEK, Michigan               DINA TITUS, Nevada
TIM HUELSKAMP, Kansas                RAUL RUIZ, California
MIKE COFFMAN, Colorado               ANN M. KUSTER, New Hampshire
BRAD R. WENSTRUP, Ohio               BETO O'ROURKE, Texas
JACKIE WALORSKI, Indiana             KATHLEEN RICE, New York
RALPH ABRAHAM, Louisiana             TIMOTHY J. WALZ, Minnesota
LEE ZELDIN, New York                 JERRY McNERNEY, California
RYAN COSTELLO, Pennsylvania
AMATA RADEWAGEN, American Samoa
MIKE BOST, Illinois

                       Jon Towers, Staff Director
                Don Phillips, Democratic Staff Director

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                     BRAD WENSTRUP, Ohio, Chairman

LEE ZELDIN, New York                 MARK TAKANO, California, Ranking 
AMATA RADEWAGEN, American Samoa          Member
RYAN COSTELLO, Pennsylvania          DINA TITUS, Nevada
MIKE BOST, Illinois                  KATHLEEN RICE, New York
                                     JERRY McNERNEY, California

Pursuant to clause 2(e)(4) of rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.






                            C O N T E N T S

                              ----------                              

                      Thursday, September 10, 2015

                                                                   Page

A Review of Licensing and Credentialing Standards for 
  Servicemembers and Veterans: Do Barriers Still Remain?.........     1

                           OPENING STATEMENTS

Brad Wenstrup, Chairman..........................................     1
Mark Takano, Ranking Member......................................     2

                               WITNESSES

Mr. Steve Gonzalez, Assistant Director, National Veterans 
  Employment & Education Division, The American Legion...........     3
    Prepared Statement...........................................    32
Dr. Roy Swift, Executive Director, Workcred, and Affiliate of the 
  American National Standards Institute (ANSI)...................     4
    Prepared Statement...........................................    38
Mr. Jamie P. Merisotis, President, Lumina Foundation.............     6
    Prepared Statement...........................................    41
Ms. Denise Roosendaal, Executive Director, Institute for 
  Credentialing Excellence (ICE).................................     8
    Prepared Statement...........................................    46
Ms. Teresa W. Gerton, Acting Assistant Secretary, Veterans' 
  Employment and Training Service, U.S. Department of Labor......    19
    Prepared Statement...........................................    57
Mr. Frank C. DiGiovanni, Director, Force Readiness and Training, 
  U.S. Department of Defense.....................................    21
    Prepared Statement...........................................    62
Mr. David Quam, Deputy Director, Policy, National Governors 
  Association....................................................    23
    Prepared Statement...........................................    70

                             FOR THE RECORD

National Council of State Board of Nursing.......................    78
The Reserve Officers Association of the United States............    81


                       A REVIEW OF LICENSING AND



                      CREDENTIALING STANDARDS FOR



                      SERVICEMEMBERS AND VETERANS:



                       DO BARRIERS STILL REMAIN?

                              ----------                              


                      Thursday, September 10, 2015

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                      Subcommittee on Economic Opportunity,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 2:20 p.m., in 
Room 224, Cannon House Office Building, Hon. Brad Wenstrup 
[chairman of the subcommittee] presiding.
    Present:  Representatives Wenstrup, Costello, Radewagen, 
Bost, Takano, and Rice.

          OPENING STATEMENT OF CHAIRMAN BRAD WENSTRUP

    Dr. Wenstrup. Good afternoon, and welcome to the Veterans' 
Affairs Subcommittee on Economic Opportunity's hearing today 
entitled, ``A Review of Licensing and Credentialing Standards 
for Servicemembers and Veterans: Do Barriers Still Remain?''
    For several years, many have tried to do what on face value 
should be a fairly easy task, ensuring that the training and 
knowledge that servicemembers gain from their time in the 
military seamlessly translates to civilian licenses and 
credentials when they return home.
    The translation of skills is critical. As we know, so many 
positions in our economy could remain unfilled due to the ever-
growing skills gap of our workforce. We simply should not 
continue to spend millions of dollars training servicemembers 
to do a job in the military and then require them to turn 
around and retake unnecessary courses or exams for the same job 
in the civilian workforce.
    After many years of great work done by many of our 
witnesses here today as well as others, I think we can safely 
say that their hard work is finally paying off. Last week, the 
Bureau of Labor Statistics announced that the unemployment rate 
for veterans in August was 4.2 percent, the lowest it was been 
in many years.
    So news like this is very encouraging, but I still remain 
concerned about the number of younger veterans who remain 
either unemployed, underemployed at their current job, or have 
left the workforce altogether. These are the types of veterans 
that can benefit from redoubling our efforts to improving 
licensing and credentialing standards and programs for our 
veterans.
    Before I recognize the ranking member, I want to recognize 
the efforts of members of our first panel. Veterans groups like 
the American Legion and nonprofits like the Lumina Foundation 
are the ones who are on the front line making huge strides in 
addressing this issue. It is groups like these, not the Federal 
Government, that are turning the tide.
    I also want to thank the National Governors Association for 
their work and attendance here today. Congress can create all 
of the new Federal programs we want, but if the States don't 
participate and step up and change their laws and regulations 
to recognize the skills and knowledge that our servicemembers 
gain through military service, then the programs are doomed to 
fail.
    So, with that, I look forward to hearing from our witnesses 
today about how Congress can help facilitate improvements in 
this area, and I now recognize the ranking member, Mr. Takano, 
for his opening comments.

        OPENING STATEMENT OF RANKING MEMBER MARK TAKANO

    Mr. Takano. Thank you, Mr. Chairman. And I am very happy to 
join in today's examination of the challenges veterans face as 
they translate skills and training they have received in the 
military to their best advantage in the civilian workforce.
    I appreciate the witnesses appearing here today from the 
various sectors most involved in this process. The chairman and 
I are both committed to eliminating unnecessary barriers to 
veterans' employment, and I look forward to learning how we can 
improve current policies to ensure that veterans' military 
experience and training effectively translates into meaningful 
civilian employment.
    In examining this issue, it is crucial that civilian 
industries recognize and need the certifications that our 
veterans are pursuing. I am concerned about the lack of 
legitimate third-party accreditation of most licenses and 
credentials, and I worry that, without clear standards, 
veterans may be pursuing certifications that don't lead to 
jobs.
    In particular, I am extremely troubled by the fact that 
many veterans are chipping away at their valuable post-9/11 GI 
Bill entitlement, a month at a time, in order to pay for 
licensing or credentialing tests, especially if those 
certifications don't lead to meaningful careers.
    I look forward to your testimony about how we can improve 
our current policy of charging veterans 1 month of post-9/11 GI 
Bill entitlement per licensing or credentialing test. Surely, 
there is a better way to pay for these tests than to remove 1 
full month per test from the veteran's 36-month entitlement. I 
am looking into a legislative solution, and I hope Chairman 
Wenstrup will also be interested in considering ways to fix 
this particular problem.
    We have got a lot to get through here today, and so I just 
want to say welcome. Welcome back, everybody. And thank you 
again for being here and answering our questions. And I look 
forward to the testimony from all of you here today.
    I yield back.
    Dr. Wenstrup. I thank the ranking member and now welcome 
our first panel of witnesses to the table.
    With us today we have Mr. Steve Gonzalez--welcome back--
Assistant Director of the National Veterans Employment and 
Education Division for the American Legion; Dr. Roy Swift, 
Executive Director of Workcred, which is an affiliate of the 
American National Standards Institute; Mr. Jamie Merisotis, 
president of the Lumina Foundation; and Ms. Denise Roosendaal, 
Executive Director of the Institute for Credentialing 
Excellence.
    Thank you for all being here today.
    Mr. Gonzalez, you are now recognized for 5 minutes.

                  STATEMENT OF STEVE GONZALEZ

    Mr. Gonzalez. Thank you, Mr. Chairman.
    Good afternoon, Chairman Wenstrup, Ranking Member Takano, 
and distinguished members of the subcommittee. On behalf of 
National Commander Dale Barnett and over 2 million members of 
the American Legion, we thank you and your colleagues for the 
work you do in support of our servicemembers, veterans, and 
their families. The American Legion commends you for holding 
this hearing.
    In early 1996, the American Legion launched the first 
groundbreaking credentialing study to report on those skills 
for which the armed services provided training and for which a 
license or certification is required in the civilian workforce.
    The education, training, and experience obtained during an 
individual's military service not only provides tangible 
benefits for the Nation's defense but can also contribute 
significantly to a highly skilled civilian workforce. The 
military invests millions of dollars training its uniform 
personnel, providing a broad base of knowledge and experiences 
that can carry over to civilian occupations.
    However, transitioning from military occupations to 
civilian jobs can present significant challenges for 
servicemembers. Postsecondary education credentials are 
arguably even more important today than ever before. Those 
individuals who hold the credential generally have lower 
unemployment rates and greater earning power. Since 2008, jobs 
in the workforce that require some postsecondary education or a 
degree have increased by 3.6 million, while jobs for people 
with a high school diploma or less have declined, leading to 
higher unemployment rates.
    However, when civilian credentialing boards, States, and 
employers fail to fully recognize military education, training, 
and experience, both the servicemember and the Nation are 
impaired. The veteran faces reduced chances of obtaining a job 
on par with his or her skills, and the civilian workforce 
cannot take full advantage of the extensive skills training in 
which our Nation has invested.
    Still, the process for a veteran to get licensed is not as 
easy as showing up to an office with a DD 214 providing 
relevant military training. Conflicts between Federal and State 
requirements for credentials complicate the issue, which 
remains far from resolved around the country.
    Earlier this year, the American Legion hosted its second 
national credentialing summit in Washington, DC, to identify 
best practices for implementing State laws and for lobbying new 
ones. Policymakers and other key stakeholders were part of the 
collaborative discussion. The American Legion is in the process 
of issuing a post-summit report in the next several months.
    In the past several years, a variety of Federal and State 
legislation, administrative initiatives, and new Department of 
Defense and Department of Labor programs have been developed to 
reduce barriers to credentialing for servicemembers and 
veterans. We applaud these efforts but remain concerned about 
how to ensure the quality of the credentials that are paid for 
by the Department of Veterans Affairs.
    Currently, the VA does not require periodic reapproval of 
certification programs. Certification tests and organizations 
at present are only approved once, and there are no 
requirements for reapproval. However, certification 
requirements are adapted, and changes to exams are made by the 
certifying agency on a regular basis. The American Legion 
recommends a reapproval process to ensure that the tests and 
organizations continue to meet the statutory requirement for 
payment.
    Another barrier is the difference between post-9/11 and the 
government GI Bill payment system. The American Legion 
encourages this committee to eliminate the requirement that 
post-9/11 GI Bill recipients use an entire month's worth of 
entitlement for a licensing or certification test fee even when 
the fee amounts to far less than the full month's entitlement.
    Under Title 38, U.S.C. Section 3315, license and 
certification tests, post-9/11 GI Bill recipients are charged 1 
full month of entitlement, which may amount to over $1,000, 
even if the licensing or certification fee is significantly 
less than that. One of our recommendations is to reduce 
proportional to the cost of the licensing and exam fees.
    While I have only highlighted two barriers and solutions 
within my oral remarks, my written testimony further explains 
barriers and Legion recommendations to Congress.
    This concludes my testimony. The American Legion 
appreciates the opportunity to address this topic as well as 
identify ways to continue to break down barriers that would not 
only benefit those who have served but benefit our economy and 
workforce. I will be happy to answer any questions you might 
have.
    And thank you, Chairman.

    [The prepared statement of Steve Gonzalez appears in the 
Appendix]

    Dr. Wenstrup. Thank you very much.
    Dr. Swift, you are now recognized for 5 minutes.

                     STATEMENT OF ROY SWIFT

    Mr. Swift. Thank you, Mr. Chairman.
    My name is Roy Swift, and I am the Executive Director of 
Workcred, an affiliate of the American National Standards 
Institute. ANSI is the coordinator of the U.S. standardization 
system, and Workcred is a separate affiliate whose mission is 
to strengthen workforce quality by improving workforce 
credentials and the credentialing system.
    Before launching Workcred, I spent the previous 10 years 
building ANSI's internationally recognized accreditation 
programs for educational certificates and certifications.
    It is important to note that Workcred is separate from and 
respects the impartiality of ANSI's accreditation services. 
Nonetheless, both organizations share an ongoing commitment to 
fostering a more robust and qualified American workforce and 
enhancing the quality of credentials.
    As a retired United States Army colonel who served a 28-
year career in the U.S. Army Medical Department, I am deeply 
honored to testify today on the credentialing of servicemembers 
and veterans.
    U.S. military personnel gain valuable training, skills, 
and, at times, do earn civilian credentials during their 
service, particularly in the medical arena. Credentials can 
contribute to career development and enhance the potential for 
promotion for servicemembers. After military service, 
credentials can help demonstrate to civilian employers that 
training and skills attained in the military are on par with 
those gained through traditional civilian pathways.
    Unfortunately, many servicemembers that have earned a 
military occupational specialty are often not licensed or 
certified to perform a comparable job in the civilian 
workforce. This situation creates an artificial barrier to 
employment.
    With an estimated 250,000 military personnel expected to 
leave the service every year, the need to translate military 
skills into civilian careers is as important as ever. But we 
face a tremendous challenge. There are more than 4,000 
certifications in the U.S., and less than 10 percent of these 
are accredited or reviewed by a third-party accreditation body. 
This lack of third-party review creates a buyer-beware 
environment because most certifications would not meet a 
national or international standard.
    Accreditation is an independent third-party assessment of a 
certification body's competence, and it plays an important role 
in increasing the credibility and continuous quality 
improvement of certifications.
    ANSI's accreditation process is designed to increase the 
integrity and mobility of certified professionals and provide 
confidence to the market that they have the required 
competencies as advertised. Millions of professionals currently 
hold certifications from ANSI-accredited certification bodies.
    In ANSI's view, the global nature of personnel 
certification demands accreditation to international standards. 
That is why ANSI's accreditation program is based on a national 
standard and international standard, ISO 17024. And that is why 
ANSI was the first U.S. accreditation body to deliver this 
accreditation in accordance with the requirements of 17011.
    17011 is the basis for mutual recognition of accreditation 
bodies in countries around the world. This assures that 
credentials are seen as equivalent and are transportable across 
borders, broadening the global labor market and opportunities 
for employers and employees.
    With respect to veterans' employability, ANSI has long been 
an active leader in working with the government on private 
credentialing solutions. For example, the military 
Credentialing Opportunities Online, COOL, program and the 
Department of Labor highlight ANSI accreditation.
    With a broader vision, Workcred is focused on building a 
competency-driven credentialing economic system. We want to 
create alignment between industry, training, and credentialing 
organizations. This will advance the quality workforce 
credentials that have validity and are market-valued and will 
promote an open, transparent exchange of information.
    ANSI and Workcred, in collaboration with the American 
Legion, were instrumental in working with the Army's TRADOC to 
identify high-quality, industry-recognized credentials relevant 
to Army soldiers as candidates for Army credentialing pilot 
programs.
    Together with partners from George Washington University 
and Southern Illinois University, Workcred has just launched 
the Credentialing Transparency Initiative Pilot Program to 
create clarity in the U.S. credentialing marketplace. Funded by 
Lumina, the initiative will create a voluntary registry that we 
think has great potential for use by the Department of Defense.
    All Americans have a stake in a strong and effective 
credentialing system. Both ANSI and Workcred are committed to 
supporting the employability and successful transition of 
military servicemembers into the workforce.
    Thank you, sir.

    [The prepared statement of Roy Swift appears in the 
Appendix]

    Dr. Wenstrup. Thank you very much, Dr. Swift.
    And, Mr. Merisotis, you are now recognized for 5 minutes.

                STATEMENT OF JAMIE P. MERISOTIS

    Mr. Merisotis. Thank you very much for the chance to be 
here today. I am Jamie Merisotis, president of Lumina 
Foundation.
    You know, the issues being discussed here today are vital 
not just to the millions of individuals who are directly 
affected but to the growing demand for talent that will impact 
our entire Nation and its future. At Lumina Foundation, which 
is the Nation's largest private foundation focused specifically 
on increasing student access to and success in postsecondary 
education, we are working to improve the Nation's talent 
profile by focusing all of our efforts on one specific goal, 
what we call ``Goal 2025.''
    That goal is this: By the year 2025, we want 60 percent of 
Americans to hold a high-quality postsecondary degree, 
certificate, or other postsecondary credential. We are 
convinced that this level of educational attainment is a 
national necessity that is the only way to ensure our country 
can thrive in the global economy.
    Unfortunately, today, only about 45 percent of Americans 
now hold any kind of postsecondary credential at all. So, 
clearly, we are a long way from having the workforce that we 
need for the 21st century.
    Certainly, servicemembers and military veterans can help 
close this gap. In fact, they represent a huge asset, a rich 
source of talent that this Nation sorely needs. Unfortunately, 
as you have already heard, their vast potential is not being 
fully realized, in part because of barriers imposed by issues 
related to education credentialing.
    Lumina is involved in many different areas of work related 
to credentialing. When we embraced this idea of Goal 2025, we 
realized very quickly that things must change significantly 
when it comes to credentialing if we have any hope of reaching 
that 60-percent rate. Simply put, our Nation's postsecondary 
system needs to be revamped so that it can serve students 
better and serve far more of them than it ever has before, 
including the millions of our military veterans.
    In short, we need a student-centered system, one that 
recognizes and rewards not just time spent in the classroom but 
actual learning, no matter where or how that learning was 
obtained. This is critical for servicemembers and veterans. If 
there is one barrier to postsecondary success facing our 
returning veterans, that is it: being recognized for what they 
learned while in service. Any workable redesign of higher 
education must address this barrier, which results from the 
complexity and confusion of our current approach to 
credentialing.
    Today's credentialing marketplace is highly fragmented, 
with a vast array of credentials that don't always connect--to 
each other, to other educational opportunities, or to careers. 
We need a credentialing system that does connect, one that 
actually functions as a system, not as a collection of 
disparate parts.
    A great deal of our recent work has been focused on 
reimagining this type of interconnected system. In fact, as Dr. 
Swift mentioned, we are part of a partnership of more than 80 
national organizations--business, education, workforce, labor, 
and other organizations--that have begun a national dialogue on 
this topic.
    A reimagined credentialing system would be competency-
based, interconnected, and continually updated. It would ensure 
quality, and it would enable users--students, education 
providers, and employers--to compare the value of various 
credentials. Clearly, a system with these attributes would be 
of enormous benefit to veterans as they make their transition 
to civilian life.
    Of course, the effort to create this type of interconnected 
system is one that will require concerted action by a range of 
stakeholders, including the Federal Government, which has 
supported credentialing reform through its leadership, through 
funding, and through participation and research.
    The Departments of Labor and Education, among others, are 
already testing approaches to a more inclusive system of 
credentialing for all students. The Federal Government should 
work to link those efforts to the many others underway to build 
a credential system that works for all learners.
    Frankly, there are few issues far more urgent than meeting 
our Nation's growing need for talent. Assuring that the talent 
of our veterans is recognized, that they obtain appropriate 
credentials for what they know and what they can do, and that 
they have opportunities to develop their talent has great 
import for the veterans themselves, for their families, their 
communities, and for our Nation.
    I am very pleased that this committee and others are 
considering approaches to breaking down barriers and finding 
ways to recognize learning and skills however and wherever they 
are achieved. I am happy to answer your questions about the 
steps that the Federal Government might take in this effort or 
to provide further information on the work that we are doing in 
this area.
    Thank you very much for the chance to testify.

    [The prepared statement of Mr. Merisotis appears in the 
Appendix ]

                 STATEMENT OF DENISE ROOSENDAAL

    Dr. Wenstrup. Thank you, Mr. Merisotis.
    Ms. Roosendaal, you are now recognized for 5 minutes.
    Ms. Roosendaal. Thank you, Mr. Chairman.
    My name is Denise Roosendaal. I am the Executive Director 
of the Institute for Credentialing Excellence. It is a 
501(c)(3) membership organization representing credentialing 
bodies across the country. The National Commission for 
Certifying Agencies, NCCA, is our accrediting arm and has 
accredited over 300 personnel certification programs to its 
standards since its inception in 1977.
    I would like to thank you for the invitation to speak with 
you today on such an important topic. ICE has been involved in 
this topic for several years, supporting the establishment of 
the Army-Navy COOL Web sites back in 2003 as well as the two 
credentialing summits held by the American Legion in 2012 and 
2015.
    In my written testimony, I outlined anecdotal evidence of 
some of the success stories that we have heard about from 
several credentialing organizations, such as the American 
Culinary Federation and the Human Resources Certification 
Institute. These organizations connected with the military in a 
meaningful way to create a smooth pathway for Active Duty 
military servicemembers and veterans to access the private-
sector certifications.
    I have also outlined in my written testimony six areas that 
I think still need some attention. These are somewhat technical 
in nature, but I do believe that in order for us to move 
forward in connecting private-sector credentials with the 
important experience and knowledge that military servicemembers 
and veterans bring to the marketplace they should be addressed.
    Very quickly, these areas are: the alignment of required 
knowledge, skills, and competencies between military experience 
and the civilian certification; some of the challenges in 
understanding and communicating certification and military 
nomenclature and classifications; the eligibility requirements, 
where there are no alternative pathways outlined to help 
identify equivalents in military experience; the lack of 
awareness of some of the best practices, such as governance 
structures, the separation of education from certification 
practices; the need to educate employers on the value of 
certifications for veterans; as well as inadequate resources 
for necessary activities that would help resolve some of these 
technical areas.
    So the first one that I mentioned, the alignment of 
required knowledge, to many of our organizations has become 
clear as one of the most important to address. The alignment of 
acquired knowledge is sometimes--the misalignment is sometimes 
fueled by that misunderstanding of the military nomenclature, 
and it is probably the most significant obstacle.
    Some private-sector credentialing organizations have found 
great success in their military programs by conducting an 
extensive and often expensive gap analysis mapping the military 
knowledge and skills back to the certification's own job 
analysis of required skills.
    Other programs, like the Human Resources Certification 
Institute, overcame this obstacle by creating a direct 
connection to the military through the Army's Training with 
Industry, TWI, program. This is where they place a liaison in 
the office of HRCI, and for at least a year they understood and 
began to communicate the differences between the military HR 
requirements and the private-sector certification.
    Without that direct personal connection, however, the gaps 
have to be analyzed on paper. And sometimes those gaps are 
easily identified; sometimes they are identified and filled 
with just specific training. Such as the Culinary Institute, 
they identified certain skills that were lacking in the 
military experience, and they were able to fill that gap with 
employer-based and employer-funded training.
    But, more often, the gaps are not easily or accurately 
identified, especially around eligibility requirements. We are 
seeing that there is some misunderstanding of, when private-
sector certification requires a certain number of years of 
experience--say, 5 years of relevant experience, it is not 
clear whether or not the military 5 years experience is 
equivalent.
    The COOL site has helped immensely in connecting 
certifications with specific MOSs, but I think helping the 
private sector understand that connection a little bit better 
would be very helpful.
    In ICE's research, 89 percent of certification bodies are 
nonprofit, 501(c)(3) or (c)(6), with a median staff size of 
about six individuals. So it does make it difficult to find the 
resources to help fill these gaps and address these issues.
    I would be remiss if I concluded without expressing ICE and 
NCCA's commitment to identifying quality credentialing 
programs. The NCCA standards were originally created through a 
federally funded grant to create standards for quality 
personnel certification programs. The third-party accreditation 
is the best means for assessing quality programs, and our 
military servicemembers deserve that quality.
    Thank you again for the opportunity to speak with you 
today. I do hope that ICE and NCCA can continue to be a 
resource for this committee.
    Thank you.

    [The prepared statement of Denise Roosendaal appears in the 
Appendix]

    Dr. Wenstrup. Well, thank you very much.
    I thank you all for your testimony.
    I am going to now yield myself 5 minutes for questions.
    Mr. Gonzalez, in your written statement, you address the 
concern of the services informing servicemembers of the 
opportunities that may exist with credentialing and licensing 
after their service.
    One of my thoughts is, maybe, yeah, you can do it 
throughout their service career, but I also think it can be a 
recruiting tool and be brought up from the very beginning, 
depending upon what someone's MOS is going to be, obviously, 
what those opportunities are, just like the GI Bill is a 
recruiting tool.
    I just wanted to get your thoughts on that or other methods 
that you think might be helpful.
    Mr. Gonzalez. Mr. Chairman, I believe that you are 
absolutely right, so I agree with you that it should be done in 
a process and it should be done as the military now 
transitions--and you, Mr. Chairman, who sits on the Armed 
Services Committee--it is a lifecycle.
    So it is making sure that that individual understands in 
their particular profession within the military what else they 
can be doing, not just to better themselves, but also it helps 
the readiness of the military. A better workforce for the 
military is a better ready military.
    But, also, it helps those individuals that when they do 
transition out, one, it decreases unemployment for the 
military, what they pay out, but also it helps retain those 
individuals, whether it is in the Reserves or National Guard, 
for the total military force.
    And then, of course, how do we figure out how to leverage 
technology, Mr. Chairman. How do we use technology to still get 
information, not just individuals within the continental United 
States but also overseas regardless of where they are stationed 
at, Mr. Chairman.
    Dr. Wenstrup. You mean technology for continued training in 
certain skills? Is that what you are----
    Mr. Gonzalez. Technology as far as how we deliver those 
types of material--study material, information. And, in some 
cases, and I know there are other organizations like a 
Princeton Review, and how do we deliver those types of exams. 
Can we deliver those exams through new technology platforms 
that, regardless of where you are at, you can still be able to 
take that test and be prepared while you are overseas. And 
then, of course, when you get back, you are still prepared, Mr. 
Chairman.
    Dr. Wenstrup. Yeah. Just like when you deploy and you may 
want to continue your military education classes online or 
whatever, depending upon where you are, you can do that.
    Mr. Gonzalez. Yes, sir.
    Dr. Wenstrup. Okay. I appreciate that input.
    Now, this might seem like a very obvious question, but I 
would ask all of you: What is the number-one thing that this 
subcommittee and Congress could do today or quickly to improve 
licensing and credentialing opportunities for veterans, in your 
opinion?
    And we can go down the line.
    Mr. Swift. Well, the word ``certification'' is pretty 
meaningless these days. You can say that you are certified when 
you pay $50 to get it, or it could be one in which it is fully 
accredited by a legitimate accreditation agency. So, often, it 
is a buyer-beware market, and it is very confusing to soldiers 
and the Department of Defense.
    And that is why, in our pilot program where we are looking 
at using an electronic means via to look at the transparency of 
credential of the National Transparency Credentialing 
Initiative. We think that this sort of national registry would 
be dynamic, because it has a platform where it spiders down and 
obtains the most recent information, and that registry would 
allow applications, such as the Department of Defense to put an 
application on the registry about the requirements of 
particular military occupational specialties, and match it to 
competencies related to specific credentials that meet certain 
criteria that have been developed by the Department of Defense.
    Naturally, we think that if we are going to say that we 
will only reimburse for higher education that is accredited, 
institutionally or programmatically accredited, and we think 
certification is important--which we believe it is--to moving 
people to obtain jobs, then the Department of Defense should 
not be accepting any certifications unless they are accredited 
or have had some sort of third party review in that regard.
    Dr. Wenstrup. I think it is probably also important for the 
servicemember to have some understanding of what States 
recognize a certain credentialing. Like you said, you can get a 
credential, but if no one recognizes it parlays into a 
legitimate job, then you have been had.
    Mr. Swift. Right.
    Dr. Wenstrup. I think that is important information to get 
out. Am I understanding you correctly there?
    Mr. Swift. Yes, absolutely.
    And this national registry which was funded by Lumina 
Foundation is designed to have descriptors that would establish 
a profile, not just what are the terminal competencies so there 
could be a match between military occupational specialty and 
the competencies, but what is the transfer value of that 
credential it is related to state regulation and who recognizes 
it, if anybody. There are about 18 descriptors, sir, that at 
another time and another place could be discussed.
    It is in the pilot stage, but we do think that this could 
be one of the answers to begin increasing this communication. 
Because we found, even with the meeting that we had with the 
American Legion--we brought about 20 certification bodies to 
meet with TRADOC. The difficulty of communication between 
higher education, the credentialing organization, and industry 
seems to be very difficult without some sort of facilitation.
    I talked enough. I will be quiet.
    Dr. Wenstrup. Well, and my time has expired, and I see 
people nodding, so, at this time, I will recognize Mr. Takano 
for 5 minutes.
    Mr. Takano. Thank you.
    I recognize that need for that coordination among the three 
entities you just mentioned.
    Do any of you see a potential in the area of licensing and 
credentialing for the kind of predatory marketing that has 
often gone on in the for-profit sector in higher education? If 
so, what can we as Federal policymakers do now to protect 
veterans and the integrity of Federal programs designed to help 
them transition into meaningful civilian employment?
    Mr. Merisotis. It is an enormously difficult question. As 
you know, as a member of the Education and Workforce Committee, 
these issues are cutting across Federal programs in so many 
different ways.
    And I think, ultimately, this issue of protecting the 
interests of students, the learners themselves, comes down to 
the fact that we have to change the paradigm of what we are 
actually getting at in these programs.
    We have talked about it; whether it is in the GI Bill 
benefit programs, whether it is in education programs or 
others, these are all time-based programs, right? So you 
accumulate college credits, your benefits expire after 36 
months. All of these are rooted in these concepts of time 
instead of concepts of learning.
    And we should be increasingly pushing these concepts that 
all of us, I think, have talked about today, which is 
competency in these programs and then driving the consumer 
protection element around whether or not students, whether they 
are veterans or other students, have actually learned in these 
programs. What have they gotten academically? What do they 
know? What are they able to do out of these programs?
    Then we would worry less, frankly, about whether it is a 
for-profit or a not-for-profit. We would focus more on what are 
the learning outcomes. Frankly, we have some abuses in not-for-
profit educational providers, as well, that we have to address.
    So I think these issues that you are talking about, which I 
think are real and serious, ultimately we have to get at that 
root cause of the fact that competency should be what we should 
be focusing on in all of our postsecondary learning programs.
    Mr. Takano. Dr. Swift.
    Mr. Swift. And around that competency, I would like to talk 
about the triad, that you can't just talk about competencies. 
First of all, are they validated competencies?
    Mr. Takano. Right.
    Mr. Swift. Have they been validated by industry or the 
appropriate organization that is looking into this?
    And, thirdly, what is the quality of the assessment? 
Because we may get the competencies right, but, as Mr. 
Merisotis was saying, if we don't have the correct assessments, 
we will never know whether learning took place or not.
    So one of the weak links--and this is true of 
certifications too; if the exam doesn't discriminate--we don't 
know whether learning takes place if our assessment instruments 
aren't strong enough to discriminate between those who know and 
those who don't know.
    Mr. Takano. Well, thank you.
    Mr. Gonzalez, as I understand it, the post-9/11 GI Bill 
recipients use an entire month's worth of entitlement for a 
certification or licensing fee, whether or not that--excuse me, 
I am looking at the--they use an entire--or licensing fee does 
not apply to Montgomery GI Bill recipients. Their entitlement 
is reduced proportionally.
    Why do we take so much more away from post-9/11 GI Bill 
recipients? I am comparing the two different programs. Is it 
just easier for the VA to do recordkeeping?
    Mr. Gonzalez. Mr. Takano, when the post-9/11 was first 
introduced, I was still in college. So, to be honest, behind 
the scenes and what was the formula that was used to calculate 
post-9/11, I am not aware of.
    However, Montgomery GI Bill does pretty much prorate in 
what the cost is, thus saving you entitlements for the longer 
education process. And I know this is something that I would 
definitely love to talk more in detail with the committee 
itself on how can we kind of revert certain sections of post-9/
11 to what Montgomery had in place to ensure that that 
particular individual is not exhausting its entitlement and, of 
course, keeping in mind within fiscal constraints and making 
sure that CBO can score it properly and it is something that is 
amenable with Members of Congress too, Mr. Takano.
    Mr. Takano. Great.
    Well, since the VA is not here, can you describe for us the 
supposedly stringent criteria VA uses to approve credentials 
for the GI Bill?
    Mr. Gonzalez. There is no standard, Mr. Takano. If you want 
the honest truth, there is no standard. It is whatever the 
checklist is from the State approving agency gets stamped, and 
once that program is stamped as approved, it is a done deal.
    Mr. Takano. So the American taxpayer could indeed be paying 
for these tests and credentials, which really don't result in 
anything.
    Mr. Gonzalez. Yes. There is no reapproval process by the 
VA. So there is no incentive for the VA to come back and say, 
we are going to do an audit, we are going to reexamine your 
certification program in general.
    And I can give you an example of us, ourselves, and the 
American National Standards Institute meeting with the VA about 
a year and a half ago to bring this particular subject up to 
their knowledge and make them aware of it, and their response 
was, who are we hurting?
    Mr. Takano. Thank you.
    And, Mr. Chairman, I really thank you for the time and the 
subject matter you have brought before us. We have a lot of 
work I plan to do and work with your office on this in the days 
to come.
    Dr. Wenstrup. Thank you.
    Mr. Takano. Thank you.
    Dr. Wenstrup. Mr. Costello, you are recognized for 5 
minutes.
    Mr. Costello. Thank you, Mr. Chairman.
    And thanks to all of you for being here and for what you do 
every day.
    Obviously, the name of this subcommittee is the Economic 
Opportunity Subcommittee, and so the focus is on creating more 
economic opportunity for veterans and making sure that we carry 
through legislatively and from an implementation perspective to 
provide that economic opportunity.
    With the hearing title being ``Do Barriers Still Remain?'', 
I think the answer is, yes, barriers do remain. I think the 
added question is, well, what can we do about those barriers? 
It seems to me, given the principle of federalism, that States 
certainly have some--well, they do have flexibility and 
discretion in terms of what their particular occupational 
licensing standards are. Fine. It also seems to me that that, 
in and of itself, can create a barrier.
    And so what can we do, either from a preemption perspective 
federally or from just a best-practices perspective, to align 
them better so that a veteran who wants to return to my State, 
Pennsylvania, or maybe to Miss Rice's State, New York, doesn't 
decide--and Miss Rice is terrific--to go to Miss Rice's State 
because the occupational licensing standards there are more 
favorable to what that veteran has acquired from a skills and 
experience perspective but yet Pennsylvania--and I am using it 
as not an example but for purposes of hypothetical--
Pennsylvania's may be more difficult? And so we want to align 
that so that that doesn't occur for a veteran wanting to choose 
where they may live.
    So my question is twofold. One, what can we do on the 
Federal level to diminish the possibility that the 50 State 
occupational licensing jurisdiction doesn't create a barrier 
from a legislative perspective on a preemption basis? And, 
number two, what can we do from a best-practices perspective in 
order to reduce that?
    If that question is too much in the land of hypothetical, I 
believe it was Mr. Gonzalez or Mr. Merisotis who said, you 
know, there are a lot of things we could talk about in terms of 
what Congress could do. So that would be sort of the catch-all 
question, if you will. And I would open it up to all four of 
you.
    And, again, thank you for being here and testifying.
    Mr. Gonzalez. Mr. Costello, I will make it quick for the 
purpose of time.
    One of the things our recommendation would be is, how do we 
create a clearinghouse on where States themselves who have 
passed legislation can acquire information so programs of 
instruction by the military, whether it is through the ONET 
process at Department of Labor, whether it is through the VA. 
And I know it is going to be a daunting task for the DoD, but 
how do we make the Federal agencies be able to provide a 
platform where States, private entities can actually go and 
acquire these programs and instructions? Of course, keep in 
mind where we are not compromising national security, so we are 
not going to put the programming instructions when we are 
dealing with cybersecurity, for instance.
    However, there are many other occupations within the 
military that will be very, very helpful for those individual 
entities to be able to access and be able to compare what have 
you actually acquired in the military, regardless of what that 
is, to be able to say we are going to recognize and accept or 
we are not going to recognize and accept and this is why we 
can't recognize and accept, whatever that might be.
    Right now, currently, it is very scattered, and how do you 
get this information or where do you get this information. And 
maybe that is a question also for the next panel, Mr. Costello.
    Mr. Swift. I just want to add a couple of sentences to 
that.
    Being 28 years in the Army, I understand that when somebody 
gets their training initially and when they go out of the 
service after 3 or 4 years, the competencies are quite 
different. And I think licensure and some certifications often 
evaluate them on what the competencies were when they took 
their initial training. And the military maybe should do a 
better job of identifying the customized competencies that one 
has achieved over that 4-year experience, because the 
experience has changed to a very different individual than the 
one that they said, this describes a medic or this describes a 
mechanic. There is a big gap difference in the two scenarios 
that.
    And then the credentialing world needs to do a better job 
of learning how to quantify experience. We don't have the good, 
sophisticated tools that we need to do that, to make that 
match. And, of course, communication is always the issue.
    But I think that if we were clear--I remember when I was in 
the Army we had something called job books. And those job books 
were competencies at every level that we were to achieve, which 
allowed us to be able to demonstrate that we had certain 
competencies if we were a lieutenant or an E-5 or a sergeant or 
whatever, and that is very different than when we were a PFC 
and this sort of thing.
    So I think those are some of the things that we can do on 
the military side that you would have some jurisdiction over in 
trying to facilitate that to happen, where we could do a better 
job in that regard.
    Dr. Wenstrup. The gentleman's time has expired.
    Ms Rice, you are now recognized for 5 minutes.
    Ms Rice. Thank you.
    Mr. Gonzalez, I just want to go back to that meeting that 
you talked about a year and a half ago at the VA. Can you just 
expound on that more? What precipitated the meeting, who was 
there, and what was discussed?
    Mr. Gonzalez. And, again, Mrs. Rice, just due to time, very 
quickly, it was--we identified certain certifications that were 
being approved by VA, that individuals, of course, can go and 
go to the course, go to the school or institution itself and 
acquire that particular credential, per se. We had identified a 
couple of them, and we brought it up to the economic section of 
the Department of Veterans Affairs, brought it to their 
attention.
    And the conversation went from bad to worse very quickly. 
And the conversation pretty much ended as, ``Who are we 
hurting?'', from their end. And our response was, you are 
hurting the veteran, you are hurting the taxpayers because we 
are paying for it. And it just kind of ended like that, and we 
just left it alone.
    And, ever since then, we have just been pushing in other 
ways to push to ensure that VA kind of overhauls how they are 
doing things--how they are approving these programs, how they 
are evaluating the programs, are they doing reapproval, whether 
they are doing surveys, whatever it is that they need to do to 
ensure that these programs are actually meeting some standard 
and some quality assurance.
    Ms Rice. So you got the sense that there was no rhyme or 
reason as to----
    Mr. Gonzalez. I got the sense that, because it is not their 
money, it is not coming out of their pocket, they can care 
less.
    Ms Rice. So what about their process made you go to--I am 
trying to figure out exactly what they are doing. They are 
saying that these programs are okay when they are not?
    Mr. Gonzalez. Yes. So the programs--and I don't know if you 
want to chime in.
    Because Dr. Swift was also at the meeting, and he can chime 
in on more of the technical side.
    If you care to.
    Mr. Swift. Sure.
    One of the things--the reason that we were concerned is 
that a lot of the agencies that had been approved talked about 
training. And certification needs to be a third-party 
assessment that is firewalled away from training, that is a 
judgment that competencies have been achieved.
    So we are saying--and they do have a self-attestation 
questionnaire that the State approving agencies use. But it 
looks like--is from our brief meeting--that VA probably needs 
to have--there needs to be more resources for the people who 
are trying to use that attestation questionnaire to determine 
if they are a legitimate certification body.
    Because it appears that maybe we have allowed some through 
that weren't really certifications, but what we would call 
certificate programs that has education and training and 
measures learning outcomes, where certification is to be an 
agency that does an analysis of what the skills are to be 
successful on the job.
    Ms Rice. So what would you suggest that the VA do?
    Mr. Swift. I would think that we need to relook at the 
criteria they are using, the questionnaire. And I think we need 
more resources to do training of the people in the States that 
have the responsibility of determining whether this is a 
legitimate certification body or not. One of the ways to 
achieve this would be to re-authorize the old Professional 
Certification & Licensure Advisory Committee to the Secretary 
of the VA.
    Ms Rice. Great. Thank you.
    Thank you, Mr. Chairman.
    Dr. Wenstrup. Mrs. Radewagen, you are now recognized for 5 
minutes.
    Ms. Radewagen. Thank you, Mr. Chairman.
    My question is for Mr. Gonzalez.
    And, yes, I welcome you, as well. Thank you very much, all 
of you, panel, for appearing today.
    You mentioned in your written statement that all 50 States 
have now passed some form of new licensing and credentialing 
laws. Does this include the United States territories?
    And, also, could you please go into more detail as to what 
these new laws are and how they will increase consistency 
across the States and territories for servicemembers and 
veterans trying to obtain certain credentials?
    Mr. Gonzalez. I cannot talk to the U.S. territories. I am 
not aware of the laws, if they have been changed, or the 
statutes in any U.S. territories. But within the 50 States, 
some type of credentialing current statutes have been changed.
    And it varies from State to State. So you might have 
something as simple as how an electrician gets their licensure, 
and, of course, in the State of Georgia versus the State of 
Washington, who might just have complete control and says, we 
are just going to make one massive overhaul, versus some States 
who want to do it in increment processes or increment 
progression to ensure that they are not compromising the public 
safety in some capacity.
    I know in one of the States that we have been doing it very 
slowly, and it is my home State of New York. It has been very 
much a slow process, whereas, again, you have some Midwestern 
States like Indiana, like Washington, Ohio, who has just done 
one massive overhaul. Of course, Iowa, as well, is another 
State.
    So it depends. But as far as U.S. territories, I am not 
aware of--I can go back and come back with the actual 
information for you, ma'am.
    Ms. Radewagen. I appreciate that.
    You also discussed how only certain occupational licenses 
are reached by Federal law, but many, including nursing, 
paramedics, et cetera, are regulated at the State level. For 
these certain occupational licenses, what can we do in Congress 
to ensure consistency of protocols all across the States and--
of course I am going to say--the U.S. territories?
    Mr. Gonzalez. I would think----
    Ms. Radewagen. We are part of the family.
    Mr. Gonzalez. If it is okay with you, ma'am, I think my 
colleagues who might be a little better versed on some of that 
and better answer that question. I would--I don't know if they 
want to answer, since I have two of the biggest accreditation 
bodies here who can actually also give you that understanding.
    And, of course, some of those particular topics are very 
much a hybrid in nature, where the Federal Government does have 
a role but then, of course, the States also have their own 
role.
    Ms. Radewagen. Okay. If we could go to the--I am running 
out of time. Thank you.
    Mr. Swift. Well, licensure is a difficult issue because it 
is a State function, and, frankly, scopes of practice are done 
by the legislature, and it is a political process about who can 
lobby the best. And that is why you have differences among 
States in regard to scope, and some people can administer 
medication, and some can't. And this is true for a lot of--and 
then some States may license a dental hygienist and some not. 
And it is the whole range of how you interpret what public 
protection is all about, because licensure is supposed to be 
strictly about public protection.
    And there are several issues associated with this. First of 
all, licensure is based on the whole idea that scope of 
practice is mutually exclusive from anybody else. So if you say 
``wound healing'' in one scope, God help you if you are another 
professional who says, ``Well, we look at wounds, too,'' you 
know. And, of course, the workforce is not going that way of 
having these boundaries of scopes. And so that is why I think 
it is very difficult for the Federal Government, because it is 
very State-controlled.
    Now, the federations, like the State boards of nursing and 
physical therapy, psychologists, they try to bring some 
standardization, but even the nurses, who are very, very active 
in trying to create a compact of mutual recognition across 
borders, I think--don't quote me on this, but I think there are 
around 30, but you would think they would have all 50 States, 
you know, in looking at this sort of thing.
    So it is difficult. I think that a recent initiative by the 
Department of Labor to look at giving grants in relationship to 
how we can decrease these barriers with licensure is a good 
start, to force the States to begin looking at, do we really 
need to license this profession or is this just a barrier that 
we put up that is really not necessary?
    Ms. Radewagen. Thank you, Mr. Chairman.
    Dr. Wenstrup. Mr. Bost, you are now recognized for 5 
minutes.
    Mr. Bost. Thank you, Mr. Chairman.
    I think I would kind of like to continue down that because 
of my experience in the State. And I am trying to figure out--
first off, this would be a pretty broad step towards removing 
States' rights and their abilities. Would you agree with that?
    Mr. Swift. Yes. That's why I say it is very difficult, 
because it is considered a State responsibility.
    Mr. Bost. And I don't know other States, but I can give you 
Illinois. Illinois, though we might have the department of 
professional regulation that handles one area, we also have 
other boards and other groups that handle other licensing. So 
how would we work to combine them in a positive way so that we 
could have one standard, I guess? Do you have any suggestions 
on that?
    Mr. Swift. I actually don't.
    Mr. Bost. Yeah. That is my----
    Mr. Swift. I just think that there may be financial 
incentives for States to begin looking at streamlining, to help 
mobility of people in the workforce and multinational 
corporations, and to try to be encouraged to move away from 
these mutually exclusive scopes.
    Because let's just take healthcare for a sample. As we move 
from hospital-based care to community-based care, we have to 
have people who can multitask and are working in the home and 
in the community. And so, to say that you can only do one 
little thing by the license is going to be an impediment to 
deliver good healthcare in this regard.
    So I guess I would approach it from that. But I don't think 
I have a good answer for you.
    Mr. Bost. But this particular proposal is not just on 
healthcare licensing; it is on all licensing.
    Mr. Swift. No, no. I was just giving healthcare as an 
example.
    Mr. Bost. I know, for example, for cosmetology, the level 
of training required and for licensing in the State of Illinois 
is so much different than States around them. And so where do 
we set the standard? Do we set it at the Illinois standard, or 
do we set it at one of the other--the lower State standard?
    Mr. Swift. This is probably something for the National 
Governors, who is up in the next panel, to talk about, because 
I think it is very difficult, because it is a legislative 
process. Scopes of practice are determined by the legislature.
    And so how to deal with that difficulty with these 
differences, you know--I mean, the differences are some State 
says, well, we have to protect the public with this profession, 
and another State will say, oh, no, we don't need to protect 
the public with this profession. And so the differences are 
extreme at times as to who supposedly is protecting the public. 
Whether it is protecting the profession or protecting the 
public is sometimes debatable.
    Mr. Merisotis. I want to just add quickly here on this 
point.
    Mr. Bost. Please.
    Mr. Merisotis. This is one of the reasons I mentioned in my 
testimony this idea of having this national dialogue on 
credentialing. Because this cacophony that you are talking 
about, I think, is precisely the problem. From the consumer 
perspective, whether it is veterans or any other group seeking 
postsecondary learning, that complexity inherent in the system 
is a big barrier to their eventual success. And so a lot of 
people get ripped off by the system, they never complete the 
programs, they never get appropriately credentialed. So it is a 
real mess out there.
    I am loathe to seek a Federal solution to this, I confess. 
And so, I think, go with your gut on that, because I am not 
sure----
    Mr. Bost. Yes, because I have a tendency to believe that 
it, like, jumps all over States' rights.
    Mr. Merisotis. Yes. Yeah. On the other hand, I think the 
Federal Government could set the tone----
    Mr. Bost. The base standard.
    Mr. Merisotis. That is right--set the tone for what the 
expectation should be and give States the opportunity to 
differentially regulate based on what they want to accomplish.
    I do think, though, that this issue of we really have to 
have a higher bar within and across States is very different. 
You know in your State that you have a real cacophony, a real 
mix, a sort of mess of different programs and different boards. 
Other States have different models. And I think we need some 
sort of basic framework, some sort of overall approach that 
everyone could agree to--national, not Federal.
    Mr. Bost. Thank you, Mr. Chairman. I yield back.
    Dr. Wenstrup. Well, thank you.
    A very interesting conversation, obviously, and not a 
simple fix. But, you know, what goes through my mind is 
focusing on what we may be able to do to allow States to make a 
decision. Because that is where it is going to have to come 
from. And I think we will hear from the National Governors 
Association and see what they have to say, but they are not 
going to want to give up those authorities, and probably 
rightfully so. But, at the same time, what can we do to provide 
each and every State or territory with information they need 
about the level of education and training that this person 
received that could help them make a decision in their 
credentialing process. And maybe that is where we need to 
focus.
    If there are no other questions, I want to thank you all 
for answering our questions, and you are now excused. Thank you 
for joining us today.
    I now want to welcome our second and final panel to the 
witness table.
    We welcome back Ms. Teresa Gerton, Acting Assistant 
Secretary for the U.S. Department of Labor's Veterans' 
Employment and Training Service. We also have Mr. Frank 
DiGiovanni, who is the Director of Force Readiness and Training 
at the U.S. Department of Defense. And, also, we have Mr. David 
Quam, deputy director of policy for the National Governors 
Association.
    I want to thank you all for being here today.
    Ms. Gerton, you are now recognized for 5 minutes.

                 STATEMENT OF TERESA W. GERTON

    Ms. Gerton. Chairman Wenstrup, Ranking Member Takano, 
members of the subcommittee. Thank you for the opportunity to 
discuss the Department's efforts on licensing and credentialing 
for veterans and servicemembers at today's hearing.
    Mr. Chairman, as you mentioned, last week the Department's 
Bureau of Labor Statistics released the August unemployment 
report. And the unemployment rate for veterans over the age of 
18 is 4.2 percent, compared to 5.6 percent 1 year ago.
    Ms. Gerton. The total number of unemployed veterans in 
August 2015 was 449,000, down from 501,000 the previous month, 
and down 25 percent over the last year.
    We believe our collective interventions contribute to these 
recent positive employment trends for our veterans. And, 
overall, August was the 66th consecutive month of private 
sector job growth.
    As the economy improves, Secretary Perez and I remain 
committed to ensuring our workforce meets the needs of our 
businesses and workers. I know you share our belief that 
veterans are critical to building our economy. The Department 
prioritizes efforts to facilitate veteran attainment of 
licenses and credentials. At the American Legion's National 
credentialing summit earlier this year, Secretary Perez said, 
``we owe to our veterans to break down the barriers to 
employment that they too often face as they reintegrate into 
civilian life''. Breaking down these barriers requires the 
cooperation of Federal agencies, State licensing boards, 
educational institutions and the private sector.
    VETS worked closely with our colleagues in the Department's 
Employment and Training Administration over the last year to 
implement landmark workforce legislation, the Workforce 
Innovation and Opportunity Act, or WIOA, emphasizing job-driven 
training that leads to industry-recognized post secondary 
credentials, and promotes the use of career pathways and sector 
partnerships to increase employment in in-demand jobs.
    WIOA reflects our shared understanding that training 
leading to credentials demonstrates skills in a way employers 
understand, a way to get workers, including veterans, jobs. 
That is why Congress added a new performance measure to WIOA to 
track and encourage credential attainment. In 2010, the 
Department set a high priority goal for credential attainment 
in our training programs. We have met or exceeded that goal 
ever since.
    With the new WIOA measures, we are confident we will 
continue to see success. And, of course, under WIOA, veterans 
and eligible spouses continue to receive priority for all 
services, as is true with all DOL-funded workforce programs.
    Another key department investment is the Trade Adjustment 
Assistance Community College and Career Training grants 
program. Over 4 years, we have awarded over $2 billion to 
community colleges nationwide to help them develop skills 
training programs leading to industry-recognized credentials 
and good jobs. The TAACCCT program has enrolled more than 
11,500 veterans through September 30th, 2014. And the last 
round of TAACCCT grants was awarded last year, but the 
Department hopes to continue the important momentum and 
innovation built through these investments.
    Our investments have worked, and the latest employment 
numbers show that, but we recognize and appreciate the value of 
knowing more. The VOW Act of 2011 required DOL to carry out a 
demonstration project on credentialing ``for the purpose of 
facilitating the seamless transition of members of the Armed 
Forces from service on active duty to civilian employment.''
    DOL funded the project with a contract with the National 
Governors Association to both engage governors in accelerating 
credentialing and licensing for veterans, and to move veterans 
into civilian employment by reducing or eliminating barriers to 
credentials, certifications or licenses. NGA designed and 
implemented the demonstration project in six participating 
States and explored accelerated career pathways for 
servicemembers and veterans in selected, high-demand civilian 
occupations.
    Also, under the VOW Act, the Department entered into a 
contract to study equivalencies between the skills of various 
military occupational specialties and the qualifications 
required for related civilian jobs. We studied 68 military 
occupations that covered 57 percent of all enlisted 
servicemembers, and created a more robust military-to-civilian 
crosswalk for those 68 military occupations.
    The Department remains committed to licensing and 
credentialing efforts, but as we discussed, the authority for 
credentialing most professions lies ultimately with the States. 
Many States are identifying and addressing licensing barriers. 
The President's budget proposes $15 million to encourage more 
State action to increase interstate portability of licenses, 
remove other barriers and provide easier access.
    Participants in the Department's registered apprenticeship 
receive an industry-issued, nationally recognized credential 
that certifies occupational proficiency. Yesterday, President 
Obama announced that the Department of Labor is awarding $175 
million in American apprenticeship grants to 46 winning 
consortia to train and hire more than 43,000 new apprentices. 
Some of these programs have specific veteran components, and I 
am happy to discuss those.
    Chairman Wenstrup, Ranking Member Takano, thank you again 
for the opportunity to testify today. I look forward to your 
questions.

    [The prepared statement of Ms. Gerton appears in the 
Appendix]

    Dr. Wenstrup. Thank you. Mr. DiGiovanni, you are now 
recognized for 5 minutes.

                 STATEMENT OF FRANK DIGIOVANNI

    Mr. DiGiovanni. Chairman Wenstrup, Ranking Member Takano, 
distinguished members of the subcommittee, thank you for the 
opportunity to speak to you today. As a 26-year veteran of the 
United States Air Force, this is an issue near and dear to my 
heart.
    In June of 2012 the Department stood up a licensing and 
credentialing task force. It was stood up for two purposes: 
First, to give meaning to the profession of arms. It is not 
only just about military courtesy, but it is also about a 
professional course that is both licensed and credentialed.
    We also believe that licensing and credentialing is 
pointing to military transition, so that is the ability to 
translate what one learned both from training, education, and 
experience, and how that translates into the private sector.
    The program of licensing and credentialing in the 
Department falls along three lines of action: The first is when 
you finish your initial qualification training, if you are 
qualified at that time, then there is an opportunity to secure 
a license or a credential. The second time is mid career when 
you have sufficient experience. And the third is as you begin 
to transition from military services.
    In October of 2013, per the direction of Congress, we did a 
set of pilots, we submitted a report to you all in 2013. And in 
that report, we looked at areas such as truck driving, 
logistics, healthcare, manufacturing, IT and other areas which 
have direct portability from the military into the civil 
sector.
    For example, on the one line of action that I spoke of, the 
Army has been very aggressive in their 91 Echo Allied Trade 
Specialist schoolhouse. Since 2012, over 2,000 initial 
graduates of that course have been awarded American Welding 
Society certification, and 2,350 members have been awarded 
certification from the National Institute of Metalworking 
Skills.
    Also, with DoD assistance, there have been 79 bills enacted 
in each of the 50 States, 40 of which have made changes which 
encourage colleges and community colleges to give military 
members credit for their training, education and experience.
    What we are working on now is that by fiscal year 2016, all 
four services will pay for credential. The latest was the 
Marine Corps which started their program this month, the other 
three, two of which actually started paying in 2015, and the 
Navy have been paying for credentials since 2008.
    We are also working on a DoD instruction to consolidate the 
policies that come from this body and other places. And we also 
have a DoD credentialing working group where we are looking to 
get the four services together to look at best practices and 
standardization.
    There is also a standup of AWS, the DoD COOL Web site, 
Credentialing Opportunity Online, that will now not only be 
able to get that from each of the four services, but there will 
be a central place for them now to go where you can get access 
to all four service sites. And the task force that I spoke of 
that was set up in 2012 has been extended to the end of 2017.
    For the way ahead, certainly what you have done has been 
fantastic. It certainly helped our military members. There have 
been great laws that have been passed; in particular, one which 
authorized our military members to receive initial skills job 
training up to 6 months before they get out. So that becomes 
their place of employment for up to 6 months before they leave 
military service. That program, or that authority, is called 
SkillBridge.
    We are also starting to shift the center of gravity to the 
States. We think that when you look at the States, the 
licensing issue certainly, as was discussed earlier, is a State 
issue. The other center of gravity is the professional 
associations themselves.
    We also think there is an opportunity to partner with 
community colleges. For example, in our study, only four of 395 
accredited paramedic colleges actually have a pipeline course. 
And what a pipeline course is is where they look at a military 
member's training, education and experience. You get credit for 
that time, you also get a competency-based exam, and then they 
custom design a set of coursework that only fills the gaps in 
what you need.
    What we have seen for the paramedic, that cuts between 6 to 
7 months of school time for transition. It is interesting that 
only 4 of the 395 institutions have that capability.
    The last area that we are looking at is in combat arms, and 
we are looking at soft skills in helping those folks 
transition. I thank you for the opportunity to speak to you 
today and I will stand by for questions.

    [The prepared statement of Mr. DiGiovanni appears in the 
Appendix]

    Dr. Wenstrup. Thank you, Mr. DiGiovanni, for your input and 
feedback in your testimony. Mr. Quam, you are now recognized 
for 5 minutes.

                    STATEMENT OF DAVID QUAM

    Mr. Quam. Chairman Wenstrup and members of the 
subcommittee, good afternoon. It is good to see you all, and it 
is a real privilege to be here on behalf of the National 
Governors Association. Governors have been very focused for 
years on veterans, the military and the National Guard. As 
commanders in chief of the National Guard, the last decade has 
seen governors very much focused on not only the protection of 
our troops when they go abroad, but their protection when they 
come home. I think this has been a really great example of what 
governors can do to help when these military men and women, 
including the Guard and our active military are coming back to 
the States. So it was a real privilege to be able to work with 
the Department of Labor to start to find those best practices.
    I think you heard a lot today that every single State, and 
I will say some of the territories as well, have taken steps to 
really help the veterans returning with regard to licensing and 
credentialing and trying to accelerate those pathways. Well, 
what we found during this 18-month, really intensive process, 
was that implementation is key. There aren't a lot of Federal 
solutions that need to be imposed, licensing and credentialing 
is a State issue for a reason. It has to do with public safety, 
it has to do with geography, it has to do with the economy. All 
those licensing boards and credentialing criteria were put in 
place for a reason.
    And State and local government has control over that 
because it is important for this to remain local. That being 
said, governors have found that there are barriers to trade and 
there are things that have to be done and the governors play a 
key role.
    As we work through this demonstration process, there were 
five key recommendations that came across for what can be done 
to really implement these programs. There was a blueprint put 
in place for all States to follow. The first recommendation: 
Assemble a team. It is remarkable only the governor has the 
authority across all the agencies to bring everybody together 
to get the level of coordination and collaboration that you 
need to get this done. The effort in the State of Ohio for 
instance, the governor called a task force together, gave it to 
the governor's workforce task force, they identified 33 
different State agencies that were involved in the hiring of 
vets, the credentialing and licensing, 33 just in the State of 
Ohio. Every State has that level of complexity, the governor as 
convener is key.
    Second, you have to do your homework. What is the 
information? How many veterans are coming back? What were they 
trained in? What does your economy need? Where are the jobs? 
What institutions do you have that can provide that training? 
And can you match it all up? Without all that information, you 
can't make really strong decisions.
    You need then data, this is where working with some of the 
national credentialing bodies, national licensing bodies is 
critical. The nurses were able to do a nationwide gap analysis 
comparing what the military did with what some of the States 
do. That type of data allows the State to start to really focus 
on what do we need to make sure that our veterans are ready for 
that civilian workforce.
    It is interesting, if you think of a medic who is trained 
to help soldiers who are injured in combat, there is a 
different level of training to handle that versus handling, 
say, infants, who you might have to service as a nurse or a 
practitioner, or the elderly. And so you have to make sure that 
the licensing and credentialing is there for a reason to make 
sure that that quality control is servicing the civilian sector 
by taking into account the training and experience to be gained 
in the military.
    Next one, don't reinvent the wheel. This is a big one. Best 
practices, the States have started to really share across State 
lines. You had six different States involved in this 
demonstration process--demonstration program, and probably the 
best thing that came out of it is them talking to each other. 
What did you do that worked? How did you work with your 
legislature? How did your State licensing board set up? What 
other bodies are you concerned with? What other are the 
politics that are involved there? How did you fund it? States 
talking to States is a key to making this work in the end.
    The last one: Share information. If I have one role for the 
Federal Government to play, it is to help with the sharing of 
information from the Federal Government and from the agencies 
to the States. A true partnership will require the flow of 
information so you don't have to go looking. One of the 
interesting findings as I was talking to some of the people who 
put together this report, they had to do workarounds just to 
get the basic information of what vets were coming back to 
their States and what have they been trained in. Those are keys 
to bring the policy decisions together to really make this 
work. Happy to take questions and it has been a pleasure to be 
here.

    [The prepared statement of Mr. Quam appears in the 
Appendix]

    Dr. Wenstrup. Well, thank you, Mr. Quam. I appreciate all 
of your testimonies. I will now allow myself 5 minutes for 
questioning.
    I will just continue with you, Mr. Quam, if I can. I 
appreciate what you said about governors taking the lead on 
some of these issues within the States, and best practices. I 
have always contended that one of the advantages of having 
States and territories is you have the opportunity to find best 
practices. You have over 50 labs to try different things to see 
what works, but it takes the communication and the knowledge of 
what is working and see if it works in your own State. And, of 
course, some of the differences between States are sometimes 
based upon--the protocols can be based upon the need of a 
State, right? Some States need different professions more than 
others, and so they may change their needs, their rules based 
on their needs.
    So, again, going back to the question I asked before in the 
previous situation is, what is it that you think that we can do 
here for the States to make the process easier? I ask that from 
the VA side, or DoD side, really.
    Mr. Quam. I am going to go back to what some of the 
previous speakers mentioned and one of the recommendations I 
was making, it is a flow of information. There is information 
that is held at the Federal level that needs to be communicated 
to the States in order for the States to make really good 
decisions.
    I will tell a story that I was just told yesterday about 
how this works, and it really brought it to light for me, and 
that is, one the States who was trying to figure out whether to 
put a paramedics training session together needed to know A, 
how many paramedics do we need in the State? They had that 
information. But B, how many folks do we have coming into the 
State who have that training and may be looking for that type 
of job? They asked the Federal Government, and part of this 
lies with several different Federal agencies.
    At the end of the day, the only way they could get that 
information was to send a FOIA request to the Federal 
Government to get it out. They couldn't get it any other way. 
Even the National Governors Association, we did this 
demonstration project, we had to also put in a FOIA request to 
get the information we were looking for.
    So there was some talk about a clearinghouse to have some 
of this information in better flow between the Federal silos 
amongst themselves, but then the Federal partnership with the 
State and local partnership--if we can just get the information 
going back and forth, that alone is going to streamline this 
process and you get some better policymaking. We would love 
your help with that.
    Dr. Wenstrup. My first question is, can you compile a list 
of the type of information that you need from the Federal 
Government that we can help try to expedite so that you can 
have this stuff available to you that is appropriate and so you 
do not have to go through that.
    Mr. Quam. And certainly, from the demonstration project, I 
think we have got some very specific information we can look 
for, work with you, have your help. Happy to bring that to you, 
yes.
    Dr. Wenstrup. If you could please forward that to us, we 
would be glad to take that information and try and take that 
ball and run with it.
    Mr. DiGiovanni, there is a sharing of information that we 
are talking about. Where do you think the DoD is right now as 
far as sharing information that may be necessary, or what 
barriers are in your way in the process of sharing information 
about the skills of our servicemembers?
    Mr. DiGiovanni. Sir, from my several years of working this 
issue, the biggest problem for us has been access. So as 
military members begin to transition, a lot of people in 
industry are looking, so how do we talk to these 250,000 
servicemembers that are getting out every year? And I think it 
was alluded to in the earlier testimony, but I think the 
technical means, the use of social networking capabilities, 
Twitter and other types of communication devices allow it to 
scale. It is too hard to try to find out individually what 
250,000 people, where they are going to go. And a lot of it is 
up to the servicemember, do they really want to release that 
information, do they know--do they even know where they want to 
go yet? So there is a lot of devil in the details when it comes 
to that question.
    But I think the biggest thing I have seen is just how do we 
use maybe technology that allows people to scale and reach out 
to them in a way that is voluntary? So if they want to be 
contacted, they can opt in and then provide that communication.
    Dr. Wenstrup. So you are talking about really the outside 
access to these skilled people?
    Mr. Quam. Yes, sir. And I think once you do that, then you 
do have a database that kind of says those are the people that 
are opted in, this is where they want to go and this is the 
kind of job they are looking for, which is what we are trying 
to do as part of the SkillBridge authority. We are trying to 
use that authority to help advertise back and forth. 
Servicemembers looking for job field training opportunities and 
companies looking for people to train.
    Dr. Wenstrup. Connecting the dots.
    Mr. DiGiovanni. Yes, sir.
    Dr. Wenstrup. Thank you. Mr. Takano, you are now recognized 
for 5 minutes.
    Mr. Takano. Mr. DiGiovanni, in your testimony, you talk 
about how partnerships with community colleges can help student 
veterans bridge their military experience to obtain civilian 
licenses and credentials. How can community colleges improve 
outcomes for new student veterans? And is there any way we can 
better incentivize the best practices in this particular area?
    Mr. DiGiovanni. Sir, great question. I--one of the things 
that we did as we saw the law started to get changed which 
opened up that kind of licensing board and flexibility to take 
advantage of military training, education and experience, 
because we went out and contracted something that I call the 
technical data package. What that did is we went and did a deep 
dive at those four places, for example, that we are doing 
paramedic pipelining. In that technical data package, we 
captured how they translated military training and education to 
college credit. And we also captured the competency-based exams 
they were giving these folks.
    So one of the things that we need to do is just, as you 
said, get the information out. I mean, it is sitting there. The 
States just need to just say, look, does the Federal Government 
have anything that has best practices? So that is one thing, it 
is really getting the best practice out. I think the second 
thing is incentivizing these community colleges in some way to 
build these kinds of programs that not only in the healthcare, 
but in other areas where we see our military veterans migrating 
to.
    Mr. Takano. You cite paramedics as an example, but have 
they tried other lines of vocations at all?
    Mr. DiGiovanni. We haven't, sir. The first study really 
took a hard look at healthcare because it was such--there was 
this great alignment between what the military is doing and the 
private sector, so that was really the first look.
    Mr. Takano. Mr. Quam, what are States doing to conduct 
meaningful gap analysis of their credentialing requirements 
against military training requirements? I think you mentioned 
nursing as one example.
    Mr. Quam. Nursing was one where the national body does some 
licensing, they did it on their own. The States went to them 
and they actually partnered together. Some States then went 
beyond that, they took what the gap analysis from the National 
Association, and then they did their own at the State level. 
But the work with some of the those national licensing bodies--
we talk about some of the groups who are trying to create some 
more uniformity without a Federal law, it is important to work 
with them because they have got the experts to do that initial 
gap analysis, and then for the States to come in and apply this 
specifically.
    I will say this, that with regard to gap analysis and with 
regard to all of this, specificity is a key. We tried to do 
this for all occupations and all licenses, we tried to take on 
everybody and streamline everything. We have found that that 
does not work. You have got to really focus on some of the key 
industries, the key places where the military training and most 
people are coming to get the most bang for the buck and have 
the most success.
    Mr. Takano. I would agree that you have to look at the key 
occupations. Nursing is one of those areas where there is an 
independent third-party validation, setting the credential at 
least, right?
    Mr. Quam. Correct.
    Mr. Takano. But, let me ask you this question: I mean, you 
talk about the State's role. I respect the State-Federal 
distinction. I come from local government as well. But say you 
have a strong credentialing body, such as nursing, or physician 
assistants, do the States really retain the autonomy to be able 
to talk about scope and also set the number of years, say, it 
takes to be an RN? Or is it really the National Association 
that is doing that?
    Mr. Quam. I think for--the National Association has a huge 
role to play. This is still legislative and it is law. So at 
the end of the day, the States have a very, very strong say. 
What you are seeing, though, is that for some of these 
professions is, I think it was well-put, finding national 
solutions to national problems, not necessarily Federal 
solutions to those problems, but national. I think that is an 
important distinction. This is one of the reasons, though, why 
we are saying the collaboration and cooperation between those 
national bodies and the States, that is critical, because there 
are some expertise there where States can build off of the work 
that has already been done.
    Mr. Takano. I would love to be able to engage with you off-
line. I have some further questions about how all this works, 
especially with nursing, physicians' assistants. The military 
may require less, but some reason they go into the civilian 
world they have to do more. Is it really necessary or are there 
other factors going on here. My time is up. But it's a topic 
that I would like to explore further with you.
    Mr. Quam. I would like to have that discussion.
    Mr. Takano. Thank you.
    Dr. Wenstrup. Mr. Costello, you are recognized for 5 
minutes.
    Mr. Costello. Thank you, Mr. Chairman.
    Mr. DiGiovanni, I have heard--elsewhere, I've heard through 
testimony elsewhere about the TAACCCT program and the need to 
improve coordination between DoD and the VA. Could you identify 
for me where you think maybe the--I don't want to say problems, 
let's say challenges--where the challenges are and what you are 
doing to make it more seamless and what, if there is anything 
Congress can do, I'll keep it open-ended for you.
    Mr. DiGiovanni. Sir, unfortunately I am not the expert on 
the TAACCCT program. Most of the areas that I engage in are in 
the licensing and credentialing piece. I will take that 
question for the record, sir, and I will get an answer back. 
But that office is run by Dr. Susan Kelly. And so I really need 
to defer to her expertise here, sir.
    Mr. Costello. Okay, appreciate that. I yield back.
    Dr. Wenstrup. Ms. Rice, you are now recognized for 5 
minutes.
    Ms Rice. Thank you, Mr. Chairman. My question is for Ms. 
Gerton, can you--you talk about working with the private sector 
in your role to find out--actually, I want to ask you how 
closely you work with the private sector to identify what the 
workforce needs are, and then how you integrate those needs 
into your credentialing program.
    Ms. Gerton. Sure. Let me speak generally about the 
Department of Labor, and then talk a little bit about what VETS 
does specifically. The grants that the Department of Labor 
offers through the State workforce system require a very close 
integration of local businesses and employers with the 
workforce boards, and then the State workforce agency or the 
grantees so that the training programs that we allow States to 
fund are actually totally integrated in building job pathways, 
career pathways for that local economy.
    It is very much a sort of a centrally-funded but locally-
executed program, so the local businesses are required members 
of the workforce investment boards, and they then drive the 
training programs that are offered in those regions so that the 
training programs are consistent with the job opportunities in 
that area.
    One of the powerful ways that the Department of Labor helps 
veterans particularly that is the VETS organization works 
directly with employers who want to employ veterans, and we 
help them take advantage of the public workforce system to 
build those job pathways so that they can bring veterans in. So 
we teach them how to use job training programs, 
apprenticeships, a variety of different workforce-funded 
options, to create a career pathway that closes skill gaps for 
veterans. That is the first.
    The second is that the Department of Labor, through its 
network of job centers, can actually work, especially with 
transitioning servicemembers, to help them navigate from where 
they are separating from the service to where they want to be. 
And we have a dislocated worker program. It is a fabulous 
program, and definitely not as well-known as it could be for 
which transitioning servicemembers qualify for 6 months prior 
to separation, and a year afterwards where they can get direct 
counseling on the skills that they currently have, how they 
might apply to jobs where they want to be, and then be 
counseled through the process of filling those skill gaps. 
Oftentimes with DOL-funded training DOL, through the dislocated 
worker program, may be able to fund the credentialing test that 
is required to port that skill to the new State.
    There is a great deal of resources here that will link 
employer needs, in general, in communities and then 
specifically for veterans so that training programs can be 
designed through the public workforce system and that 
transitioning servicemembers and veterans can take advantage 
of.
    Ms Rice. Okay. Mr. Quam, my home State of New York has 
launched an initiative in 2011 called Experience Counts, which 
expanded our State's licensing, and higher education 
credentials to better integrate military skills and training. 
Now, it is my understanding that over a dozen licenses and 
certifications covered under this initiative, and that the 
entire State University of New York and City University of New 
York system, which was one of the largest State university 
systems in the country are participating.
    So I know that you were talking about how you don't need to 
reinvent the wheel, I think it was number 4 in your list of 
five things.
    Mr. Quam. Right.
    Ms Rice. I had to say, I had to profess ignorance as to 
whether we got that idea from someone else, or if it is 
something that came from us and should be exported. Are there 
other examples like that around the country? How is it that you 
facilitate the sharing of information so they don't have to 
recreate the wheel?
    Mr. Quam. That is a great question. And part of the 
demonstration project, I have to compliment the Department of 
Labor for all their help with this, is designed to take the 
best practices and help us disseminate them. And so an interim 
came out just this year, the final report will come out later 
this year with the Department of Labor, both the National 
Governors Association and the Department will be disseminating 
this to all States to share.
    As a matter of fact, one possibility is even though we did 
six States, it is to fund--if there are funds available, to do 
another cohort, to share with another set of States. But we 
will be sharing all this information with the governors, with 
the State workforce agencies, parts with the veterans--the 
folks who handle veterans affairs in each of the States.
    It is remarkable how many agencies touch on this issue, 
education, workforce, licensing and credentialing, all can be 
separate boards. It will be our job to take the information we 
find, disseminate it to everybody, and then continue this 
discussion, both among the governors and among those folks who 
are chiefly responsible for it. DOL will be a critical partner 
in getting that done.
    Ms Rice. Great, thank you very much.
    Dr. Wenstrup. Ms. Radewagen, you are now recognized for 5 
minutes.
    Ms. Radewagen. Thank you, Mr. Chairman. I want to thank the 
panel for appearing today.
    Mr. DiGiovanni, what do you see as the biggest impediment 
to achieving better cohesion between military training and 
civilian licenses and credentials? It seems to me that it might 
be easier for the States and territories to try to conform to 
one similar standard for popular licenses and credentials than 
to have DoD try to adjust training and procedure for a variety 
of different State standards.
    Mr. DiGiovanni. So our approach has been primarily market-
driven. So one of the things that we have asked anyone who has 
asked, or anyone we talked to from industry is, what is the 
goal in certification? What is the goal in licensure? So that 
we can advise military members that if you are seeking a career 
in, say, metalworking or truck driving, which is pretty simple, 
you obviously need a CDL, but one of these kind of 
manufacturing or logistics, what are the certifications that if 
a military member walked into your H.R. office and you lay that 
on the table, that would be exactly the certification they are 
looking for.
    So from our perspective, we are looking for, again, this 
information, but this time, toward the Department, to help 
better inform our military members, what certifications and 
licensures matter, particularly in the kinds of jobs that they 
are looking for.
    I think we also not really trying to, the military to date, 
has not taken on the task of trying to do the gap training 
themselves. They do have a military requirement, and then they 
train and educate those military servicemembers to the specific 
requirements of the Department. And then what we have done is 
then provide them with information mechanisms to find out what 
the gaps are and then help them locate where they can get those 
gaps filled. And so that is--it has kind of been that process 
and also that demand-driven process, what is the marketplace 
looking for as far as licensing and credentialing?
    Ms. Radewagen. Thank you. Ms. Gerton, it is nice it see you 
again. Understanding the results of the NGA study on 
credentialing are not final, but what are other steps that you 
think we should take to incentivize States and the territories 
to pass laws and regulations that account for skills and 
training that servicemembers already have when looking at 
licensing and credentialing standards?
    Ms. Gerton. I think there are a number of initiatives 
already on the table. The interim report is out there, and it 
does lay out in draft form the blueprint that Mr. Quam talked 
about. We would certainly encourage those on the committee to 
take the report back to your home States and share those 
results, as we have already posted it out to the State 
workforce agencies, so they can begin working on it.
    And career pathways and job-driven training are a huge 
focus of the Workforce Innovation and Opportunity Act. I think 
that there is an opportunity here for us to continue the type 
of grants that TAACCCT and Ready To Work and some of the other 
labor grants represent that encourage innovation in this space, 
and encourage the development of innovation, particularly 
course curricula as a result of the TAACCCT grant that is 
shared in the public domain, so that other folks who wanted to 
pick that curriculum up already have that written. That is a 
prerequisite of the TAACCCT grant.
    I think there is that. And I think another key piece is 
increasing the capacity in the workforce system to do this kind 
of counseling and training because to answer one of 
Representative Takano's earlier questions about the cost of 
credentialing, some of those costs are already covered in the 
public workforce system. We don't need to replicate those 
costs, we can, by referring folks through the public workforce 
system, have some training paid for, some of their costs and 
credentialing paid for, and have individual counseling for them 
that helps them leverage the variety of these different kinds 
of tools. This is especially critical for veterans as we 
approach this issue.
    Ms. Radewagen. Thank you, Mr. Chairman. I yield back the 
balance of my time.
    Dr. Wenstrup. If there are no other questions, I want to 
thank you all for answering our questions today, and you are 
now excused. And I think we have a lot of valuable information 
out of this hearing today. I thank you all for your presence.
    I want to thank everyone for joining us today. It is 
important that our servicemembers and veterans have a seamless 
transition into civilian jobs, and especially ones that they 
are qualified for due to their military service. A major part 
of this is getting a licensing and credentialing process right. 
So I thank you for your input.
    I look forward to all of us continuing to work together on 
this as we move forward. Again, I thank the members and all of 
you here today for participating.
    And finally, I ask unanimous consent that all members have 
5 legislative days to revise and extend their remarks and 
include extraneous material. Without objection, so ordered. 
This hearing is now adjourned.
    [Whereupon, at 3:59 p.m., the subcommittee was adjourned.]

                                APPENDIX
                                
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                                
                                
                                

                         Statement of Roy Swift

    Workcred, an affiliate of the American National Standards 
Institute <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="374544405e5143774058455c5445525319584550">[email&#160;protected]</a>; 202.331.3617
    My name is Roy Swift and I am executive director of 
Workcred, an affiliate of the American National Standards 
Institute (ANSI).
    ANSI is the coordinator of the U.S. standards and 
conformity assessment system, and Workcred is a separate 
501(c)(3) affiliate organization whose mission is to strengthen 
workforce quality by improving workforce credentials and the 
credentialing system. Before launching Workcred, I spent the 
previous ten years building ANSI's internationally recognized 
accreditation programs for personnel certificate and 
certification programs.
    It is important to note that Workcred maintains a 
separation from and respects the impartiality of ANSI's 
accreditation services. Nevertheless, both organizations share 
an ongoing commitment to fostering a more robust and qualified 
American workforce, and enhancing the quality of credentials 
for both military and civilian personnel.
    As a retired United States Army colonel who served a 28-
year career in the U.S. Army Medical Department, I am deeply 
honored to testify today on the credentialing of servicemembers 
and veterans.
    U.S. military personnel gain valuable training, skills, and 
at times do earn civilian credentials during their service. 
Credentials can contribute to personal and professional career 
development and enhance the potential for promotion for 
servicemembers on active duty. After military service, 
credentials can help demonstrate to civilian employers that 
training and skills attained in the military are on par with 
those gained through traditional civilian pathways.
    Unfortunately, many servicemembers that have earned a 
military occupational specialty are often not licensed or 
certified to perform a comparable job in the civilian 
workforce. This situation creates an artificial barrier to 
employment for veterans. With an estimated 250,000 military 
personnel expected to leave service every year, the need to 
translate military skills into civilian careers is as important 
as ever.
    But we face a tremendous challenge. There are more than 
4,000 certifications in the U.S., and less than ten percent of 
these are accredited or reviewed by a third-party accreditation 
body. This lack of third-party review creates a ``buyer 
beware'' environment because most certifications would not meet 
a national or international standard. In fact, many self-
identified ``certifications'' are actually educational programs 
with a test to measure learning outcomes and are not 
competency-based assessments of the individual's ability to 
perform in the workplace. Certification must be fire-walled 
away from education to be a third-party judgment that 
competencies have been acquired. Certification must be time 
limited and have the ability to take away the certification for 
unethical behavior or incompetence.
    Accreditation is an independent, third-party assessment of 
a certification body's competency to perform the functions as I 
have just stated, and it plays an important role in increasing 
the credibility and continuous quality improvement of 
certifications.
    ANSI's accreditation process is designed to increase the 
integrity and mobility of certified professionals, and provide 
confidence to the marketplace that they are competent. Millions 
of professionals currently hold certifications from ANSI-
accredited certification bodies. In ANSI's view, the global 
nature of personnel certification demands accreditation to 
international standards. That's why ANSI's accreditation 
program is based on the American National Standard (ANS) and 
international standard ANSI/ISO/IEC 17024. And that's why ANSI 
was the first U.S. accreditation body to deliver this 
accreditation in accordance with the requirements of ISO/IEC 
17011, another international standard that represents the 
highest globally accepted practices for accreditation bodies.
    This 17011 standard is also the basis for mutual 
recognition of accreditation bodies in countries around the 
world. This assures that credentials--just like products and 
quality management systems--are seen as equivalent and are 
transportable across borders, broadening the global labor 
market and opportunities for both employers and employees.
    With respect to veterans' employability, ANSI has long been 
an active leader in working with the government on private-
sector credentialing solutions. For example, the military's 
Credentialing Opportunities On-Line (COOL) programs and the 
Department of Labor highlight ANSI accreditation.
    With a broader vision, Workcred is focused on building a 
competency-driven workforce credentialing ecosystem. We want to 
create alignment between industry, training, and credentialing 
organizations. This will advance quality workforce credentials 
that have validity and are market valued, and will promote an 
open, transparent exchange of information. And an associated 
benefit to society should be to reduce unemployment by 
narrowing the ``Skills Gap.'' ANSI and Workcred, in 
collaboration with the American Legion, were instrumental in 
working with the Army's Training and Doctrine Command to 
identify high quality, industry-recognized credentials relevant 
to Army Soldiers as candidates for Army credentialing pilot 
programs.
    Together with partners from George Washington University 
and Southern Illinois University, Workcred has just launched 
the Credential Transparency Initiative to create greater 
clarity in the U.S. credentialing marketplace. Funded by Lumina 
Foundation, the initiative will develop common terms for 
describing key features of credentials. It will create a 
voluntary, web-based registry for sharing the resulting 
information. And it will test practical software applications 
for employers, students, educators, and other major credential 
stakeholders like the U.S. Department of Defense. The registry 
holds great promise to make civilian credentials more 
transparent. For example: DoD, in cooperation with partners 
such as the American Council on Education (ACE), could use an 
``app'' to more efficiently connect Military Occupational 
Specialty (MOS) competencies to credentials in the civilian job 
market.
    All Americans have a stake in a strong and effective labor 
market credentialing system--especially our nation's military 
servicemembers. Both ANSI and Workcred are committed to 
supporting the employability and successful transition of 
military servicemembers into the workforce. We look forward to 
continuing to partner with the military, government agencies, 
and groups like the American Legion to advance this effort.
    Thank you and I look forward to your questions.

About Workcred

    Formed in 2014 as an affiliate of the American National 
Standards Institute, Workcred is a nonprofit organization whose 
mission is to strengthen workforce quality by improving the 
credentialing system, ensuring its ongoing relevance, and 
preparing employers, workers, educators, and governments to use 
it effectively. www.workcred.org.

About ANSI

    ANSI is a private, non-profit organization that administers 
and coordinates the U.S. voluntary standards and conformity 
assessment system. In this role, the Institute oversees the 
development and use of voluntary consensus standards by 
accrediting the procedures used by standards developing 
organizations, and approving their finished documents as 
American National Standards.
    Internationally, the Institute is the official U.S. 
representative to the International Organization for 
Standardization (ISO) and, via the U.S. National Committee, the 
International Electrotechnical Commission (IEC). ANSI's 
membership is comprised of businesses, government agencies, 
professional societies and trade associations, standards 
developing organizations (SDOs), and consumer and labor 
organizations.
    The Institute represents the diverse interests of more than 
125,000 companies and organizations and 3.5 million 
professionals worldwide. ANSI works closely with stakeholders 
from both industry and government to identify consensus-based 
solutions to national and global priorities--an inclusive, 
collaborative partnership between the public and private 
sectors. www.ansi.org.

Statement on Federal Grants and Contracts

    Dr. Roy Swift is presenting this testimony on behalf of the 
American National Standards Institute (ANSI) and the ANSI 
affiliate organization, Workcred.
    While ANSI has not directly received any Federal grants and 
contracts within the previous two fiscal years that are 
relevant to the subject matter of this testimony, we have 
partnered on some projects that are supported by grant money, 
and we have relationships with agencies that we wish to 
disclose as relevant. These include:

        <bullet> The Department of Energy (DOE) working with 
        the National Institute of Building Sciences (NIBS) and 
        industry stakeholders developed the Better Buildings 
        Workforce Guidelines, voluntary national guidelines to 
        improve the quality and consistency of commercial 
        building workforce credentials for four key energy-
        related jobs: Building Energy Auditor, Building 
        Commissioning Professional, Building Operations 
        Professional, Energy Manager. ANSI is designated as an 
        accreditation body for these schemes by DOE. ANSI is a 
        subcontractor to NIBS for this initiative, which did 
        receive funding from DOE; however, this funding was not 
        provided directly to ANSI by DOE. The certifications 
        are part of a coordinated effort under DOE's Guidelines 
        for Home Energy Professionals project, which also 
        developed Standard Work Specifications (SWS) for Home 
        Energy Upgrades, available at sws.nrel.gov.
        <bullet> ANSI and the Interstate Renewable Energy 
        Council (IREC) developed a joint accreditation program 
        for energy efficiency or renewable energy related 
        certificate programs. This initiative was funded by DOE 
        grant money; however, this funding was not provided 
        directly to ANSI by DOE.
        <bullet> ANSI's Certificate Accreditation Program (CAP) 
        has accredited three federal agencies: the U.S. Federal 
        Bureau of Investigation (FBI), the FBI Academy, and the 
        U.S. Army Combat Readiness/Safety Center. These 
        agencies paid accreditation fees but did not enter into 
        grants or contracts with ANSI.

    Workcred does not have any Federal grants or contracts to 
disclose.

                                 <F-dash>

                    Statement of Jamie P. Merisotis

    Chairman Wenstrup, Ranking Member Takano, members of the 
Subcommittee, thank you for inviting me to testify this 
afternoon. I very much appreciate the opportunity to speak with 
you about licensing and credentialing issues and how they 
relate to members of the armed services and military veterans. 
These issues are vital, not just to the millions of individuals 
who are directly affected, but to the growing demand for talent 
that will impact our entire nation and its future.
    I am Jamie Merisotis, President and CEO of Lumina 
Foundation, a private foundation based in Indianapolis. Lumina 
is the nation's largest private foundation focused specifically 
on increasing students' access to and success in postsecondary 
education. I've been at Lumina since 2008, and throughout my 
tenure, we've been working toward one specific, clearly focused 
goal. We call it Goal 2025.
    The goal, simply stated, is this: By the year 2025, we want 
60 percent of Americans to hold a college degree, certificate 
or other high-quality postsecondary credential. We are 
convinced that this level of educational attainment is a 
national necessity--that it's the only way to ensure that our 
nation can thrive in today's dynamic, global economy. And we 
are not alone in this view. Labor economists and other experts 
tell us that the overwhelming majority of new jobs require some 
form of postsecondary credential--as will two-thirds of ALL 
jobs in this country by the end of this decade.
    Unfortunately, only about 40 percent of Americans now hold 
at least a two-year degree, with perhaps another 5 percent 
holding a quality credential at the sub-associate-degree level. 
That's a long way from the 60 percent goal that we're working 
toward, which means we're a long way from having the strong, 
flexible, well-prepared workforce this nation needs to succeed 
in the 21st century.
    Certainly, servicemembers and military veterans are a 
growing and increasingly vital part of the dynamic workforce 
that this country so desperately needs. They are now returning 
from service and entering postsecondary programs in large 
numbers--and that represents a tremendous opportunity for our 
nation's future. Our servicemembers and veterans are a huge 
economic and social asset--a rich source of talent that can 
move America forward by great strides. Unfortunately, the vast 
potential of these dedicated individuals is not being fully 
realized, in part because of barriers imposed by the issues 
this subcommittee is here today to explore: issues related to 
education credentialing.
    At Lumina, we've done a lot of work in the credentialing 
area in recent years--work that stems directly from our 
commitment to the Goal 2025 effort I just mentioned. When we 
committed to that goal, we realized very quickly that things 
would have to change significantly for the nation's attainment 
rate to reach 60 percent. Simply put, we realized that our 
nation's postsecondary system would have to be redesigned so it 
could serve far more students than ever before--including 
millions of military veterans and active duty servicemembers--
and serve them better.
    In short, our higher education needs to change because our 
students have changed--dramatically.
    Today, there are more than 20 million people enrolled in 
the nation's two- and four-year institutions, including over 1 
million military veterans. A sizable majority of these 20 
million Americans--including all of the veterans and 
servicemembers--are students who do not fit the profile of a 
traditional college student. About 40 percent are 25 years old 
or older. More than one-third attend part time, and nearly 20 
percent are holding down full-time jobs as they attend college. 
About 40 percent of today's students attend community colleges 
or for-profit schools--and this is true of a much higher 
percentage of first-generation students, and those who are 
African American or Latino, and those who come from low-income 
families. If traditional students are those that go to college 
directly from high school and attend full-time, that's less 
than a third of today's students. Those who are also identified 
as a dependent on their parent's tax return and live on campus 
are an even smaller percentage. I would argue that federal 
policy has been overwhelmingly focused on students who are a 
small and shrinking share of all the students and potential 
students we should be considering. When more than three out of 
four students are considered ``non-traditional,'' it's time to 
rethink some of our assumptions.
    Today's veterans are a window into who today's students 
really are. They are older. They have significant work and life 
experiences. Many of today's students, including most veterans, 
are working adults, with responsibilities and commitments that 
extend far beyond the classroom.
    In other words, today's ``typical'' student, if such a 
thing even exists, is nothing like the student that higher 
education was originally designed to serve and that federal 
policy is based on. That means it's time--past time, really--
for a redesign. What we need is a system that is structured 
specifically to meet the varied needs of today's students--a 
system that is flexible, affordable and committed to quality.
    Fundamentally, a commitment to quality boils down to one 
thing: assuring that educational programs result in genuine 
learning--that they give students the knowledge, skills and 
abilities they need to succeed in the modern workplace and in 
life. Unfortunately, most postsecondary programs aren't set up 
to assure genuine learning. Students earn their degrees and 
credentials, not by demonstrating actual knowledge or skills, 
but by earning a specified number of credits by spending a 
certain number of hours in classrooms or labs.
    Again, the approach here is institution-centric; it's not 
designed around the needs of students. That has to change. We 
need a student-centered system--one in which credits and 
credentials are awarded, not when a certain amount of time is 
served, but when the proper knowledge and skills are 
demonstrated.
    In short, we need a system that recognizes and rewards 
actual learning--and it shouldn't matter where or how that 
learning is obtained. The knowledge, skills and abilities that 
individuals develop in non-academic settings--on the job, in 
volunteer roles, and certainly during military service--all of 
this learning matters. And that means it all needs to count. 
Students should be credited for that learning, be able to apply 
it toward a postsecondary credential, and be assured that that 
credential will be recognized when they seek employment or 
further education.
    If there's one barrier to postsecondary success facing our 
returning veterans, that's it: being recognized for what 
they've learned while in service. Any workable redesign of 
higher education must address this barrier. It starts with 
embracing what educators often call students' ``prior 
learning.'' Institutions and states must find better ways to 
assess this learning, grant academic credit for it, and include 
it in the record that qualifies a student for a credential.
    Awarding credit for prior learning is critically important, 
but our work has shown it is not enough. Like you, we have 
concluded that we must find ways to better integrate and 
organize the often-bewildering array of education credentials 
being offered.
    There are myriad credentials in today's postsecondary 
landscape, including degrees, educational certificates, 
occupational licenses and industry certifications. New types of 
credentials, such as digital badges and enhanced transcripts, 
are also emerging. However, there's little clarity about what 
these various credentials actually mean--their value, their 
quality and how they connect.
    The confusion isn't really surprising; it merely reflects 
the unstructured development of the U.S. credentialing 
marketplace over many decades. That marketplace is now a 
complex, loosely connected collection of education and training 
providers, personnel certification bodies, accreditation 
organizations and federal/state regulatory agencies and boards. 
The result: a highly fragmented, multi-layered system that 
presents major challenges for anyone attempting to obtain a 
credential to get a better job or advance their career, as well 
as employers and education providers who need to compare and 
evaluate different credentials. In short, we have an ever-
growing group of providers offering a vast array of credentials 
that don't always connect--to each other, to other educational 
opportunities, or to careers.
    We need a credentialing system that does connect--one that 
actually functions as a system, not as a group of disparate 
parts. We need a system with common definitions--one that 
engenders trust and facilitates student movement and progress, 
much like a currency exchange enables international financial 
transactions.
    At Lumina, a great deal of our recent work has been focused 
on reimagining and helping to build this type of interconnected 
system. In fact, we have helped forge a growing partnership of 
national organizations--more than 80 so far--that have begun a 
national dialogue on this important topic.
    Some of our thinking about how to improve the system is 
presented in a brief report that is included with your copies 
of this testimony--a report titled Connecting Credentials: 
Making the Case for Reforming the U.S. Credentialing System.
    I won't go into too much detail here about that report, but 
I do want to highlight one important section. It's a list of 
the five key attributes that the reshaped American 
credentialing system should have.

        <bullet> First, it should be easily understandable. All 
        postsecondary credentials--from badges to degrees and 
        beyond--should be based on competencies, making them 
        easier to understand and use by students, employers, 
        educators and workforce agencies.
        <bullet> Second, it should assure quality. Users must 
        be able to rely on the quality of credentials, 
        including their accuracy in representing the 
        competencies possessed by a credential holder.
        <bullet> Third, the revamped credentialing system 
        should be up to date. Credentials should be continually 
        updated and validated to ensure they stay relevant to 
        employer needs.
        <bullet> Fourth, it should be interconnected. All 
        students should understand how credentials connect and 
        be able to see several pathways to increase career and 
        economic mobility. Users also must be able to combine 
        credentials to fit their needs and inform their 
        education-career planning, including job transitions.
        <bullet> Finally, it should enable comparisons. 
        Stakeholders must be able to compare the value of 
        various credentials and determine which credential best 
        fits their needs.

    Clearly, a system with these five attributes would be of 
enormous benefit to military veterans as they make the 
transition to civilian life. It would make their educational 
and career pathways much more clear--thus saving time and 
helping to ensure the best return on the investment of public 
dollars for education benefits.
    Such a system would convey other benefits as well; these 
are detailed in the Connecting Credentials report, which I 
commend to your attention. I also urge you to visit a website 
that we've established to provide a platform for the national 
dialogue that I mentioned earlier. The website is called 
connectingcredentials.org.
    I want to make it clear that neither our current 
credentials system nor the stronger, revamped system I am 
describing is a federal system in any way, shape, or form. 
However, the effort to improve postsecondary credentialing is 
one that will require concerted action by a range of 
stakeholders--including the federal government.
    The federal government has supported credentials reform 
through its leadership, funding and participation in research. 
There is more to be learned and there are already discussions 
underway to test approaches to supporting and funding a more 
inclusive system of credentialing for all students. As I noted 
above, while the need for the reforms is clear for all 
students, it is especially so for veterans and servicemembers. 
I am glad to see that you, too, are considering approaches to 
break down these barriers and find ways to recognize already-
achieved learning and skills.
    I have thought a lot about these issues in recent years, 
particularly the need to recognize skills and knowledge 
whenever, wherever, and however they have been obtained. In 
fact, in my new book America Needs Talent, published this month 
by RosettaBooks, I endeavor to show how the national need to 
develop and recognize talent is driven by more than meeting the 
growing demand for educational and economic opportunity, as 
vitally important as that is. I argue that our economic and 
social future as a nation will in large measure be determined 
by our ability to build a system that expands talent. There is 
no better place to start than by assuring that the talent of 
our veterans is recognized, that they obtain appropriate 
credentials for what they know and can do, and that they have 
opportunities to develop their talent for the benefit of 
themselves, their families, their communities, and the nation.
    I needn't tell you that these men and women deserve our 
very best efforts--and that we as a nation can gain 
immeasurably by giving them every opportunity to succeed. I 
stand ready to answer any questions and would be happy to 
provide further information on the work we are pursuing in this 
area.
    Again, I appreciate the opportunity to offer testimony to 
the Subcommittee this afternoon.
    Thank you.
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
        
                     Statement of Teresa W. Gerton

Introduction

    Good afternoon, Chairman Wenstrup, Ranking Member Takano, 
and distinguished Members of the Subcommittee. Thank you for 
the opportunity to participate in today's hearing. As Acting 
Assistant Secretary for Veterans' Employment and Training at 
the Department of Labor's (DOL or Department) Veterans' 
Employment and Training Service (VETS), I appreciate the 
opportunity to discuss the Department's efforts on licensing 
and credentialing for veterans and servicemembers.
    Facilitating veteran attainment of licensing and 
credentialing is one of the Department's most important and 
challenging objectives. Addressing this requires joint efforts 
between Federal agencies, state licensing boards and 
educational institutions, and the private sector to eliminate 
the barriers between military and civilian occupations. 
Ultimately, authority for regulating entry into most 
professions lies with state governments. Although federal 
agencies and national professional associations can propose 
standards and guidelines, state licensing boards make final 
decisions about whether alternative pathways, such as military 
training and experience, are adequate to uphold public safety 
standards, based on professional norms and state laws and 
regulations. Governors and states are addressing this through 
Executive Orders and legislation directing licensing boards to 
recognize and award credit for veterans' military training and 
experience. Since 2010, all 50 states and Puerto Rico have 
enacted some form of legislation assisting active duty 
servicemembers and veterans in transferring and obtaining 
occupational licenses and certifications.
    In April of this year, Secretary Perez attended the 
American Legion's National Credentialing Summit to address a 
crowd of credentialing experts and advocates for veterans and 
military spouses. The group had gathered to explore connections 
between military experience and civilian credentials. At this 
meeting, Secretary Perez said, ``We owe it to our veterans to 
break down the barriers to employment that they too often face 
as they reintegrate into civilian life.'' The Department is 
following through on that commitment.
    Servicemembers are trained in hundreds of occupations with 
relevance to employment opportunities in the civilian workforce 
and veterans should easily be able to turn that training and 
work experience into civilian jobs. However, many civilian 
occupations have highly formalized pathways for entry, 
requiring licenses or certifications that present barriers to 
employment for those trained outside of those pathways. Despite 
the highly relevant skills and experience veterans possess, 
state- or locally-established requirements often require re-
training outside of the military.
    VETS, in close collaboration with our colleagues in the 
Department's Employment and Training Administration has been, 
and will continue to be, actively working to eliminate these 
barriers and connect military training and experience with 
civilian credentials and licenses. The Department is currently 
engaged in a number of efforts and programs to address this 
important issue, including: initiatives conducted in 
partnership with other Federal agencies; activities authorized 
under the Workforce Innovation and Opportunity Act (WIOA); a 
Licensing and Credentialing Demonstration; and the President's 
Fiscal Year (FY) 2016 Budget.

Cross-Agency Federal Initiatives

    Since 2011, the Department has been an active participant 
in a number of initiatives to enhance the civilian career 
prospects of servicemembers and veterans. These include the 
First Lady's Joining Forces Initiative, the Veterans' 
Employment Initiative Task Force implemented by the Departments 
of Defense (DoD) and Veterans Affairs (VA), the DoD 
Credentialing and Licensing Task Force, a joint effort between 
the Department and VA to streamline access to GI Bill benefits 
for veterans in registered apprenticeships, the Pilot Program 
on Civilian Credentialing for Military Occupational Specialties 
implemented by DoD and the military services, and the Military 
to Mariner Transition initiative of DOL with the Departments of 
Defense, Transportation, and Homeland Security. It is through 
federal partnerships such as these that we have been able to 
begin addressing gaps in licensing and credentialing for 
servicemembers and veterans at the federal level. Additionally, 
the Military to Mariner Transition initiative seeks to identify 
and remove the barriers that prevent servicemembers from 
attaining the U.S. Coast Guard (USCG)--National Maritime Center 
(NMC) credentials necessary to qualify for employment as 
merchant mariners.
    Initiatives such as these show how, through inter-agency 
partnerships, we can identify needed licenses and credentials 
in the civilian sector, link them to related military 
occupations, and bridge the gaps in training and licensing 
requirements for transitioning servicemembers and veterans.

Workforce Innovation and Opportunity Act (WIOA)

    The Department offers veterans, transitioning 
servicemembers, and eligible military spouses the opportunity 
to receive a range of career and training services through the 
nationwide network of local American Job Centers that are part 
of the public workforce system authorized under WIOA. WIOA 
emphasizes engaging employers across the public workforce 
system to align training with needed skills and match employers 
with qualified workers. The law also emphasizes training that 
leads to industry recognized post-secondary credentials and 
promotes the use of career pathways and sector partnerships to 
increase employment in in-demand industries and occupations. 
American Job Centers, also known as One-Stop Career Centers, 
bring together various Federal, state, and local programs to 
assist veterans in obtaining credentials and entering into or 
advancing within in-demand occupations. Veterans and eligible 
spouses receive priority of service. Available career services 
under WIOA include job-search and job-placement assistance, 
access to useful labor market information, career counseling, 
comprehensive assessment of an individual's employability, and 
the development of an individual employment plan. Veterans, 
transitioning servicemembers, and eligible spouses may also be 
eligible for DOL-funded training services, which include 
occupational training, work-based training (including 
Registered Apprenticeship and on-the-job training), and 
supportive services including assistance with child care and 
transportation. Areas with a higher than average demand for 
employment and training activities for dislocated military 
servicemembers and eligible spouses are eligible for National 
Dislocated Worker Grants.
    Community colleges are a key partner of the public 
workforce system: they are eligible providers in Adult, 
Dislocated Worker and Youth program formula grants under WIOA 
and part of the partnerships eligible for grant under a number 
of strategic DOL investments because of their unique ability to 
address specific community workforce needs. The Trade 
Adjustment Assistance Community and Career Training (TAACCT) 
grants program, an Administration flagship investment of $2 
billion over four years, is one example of funds targeted to 
community colleges nationwide to help them enhance their 
capacity to develop skills training programs in in-demand 
occupations and industries that will result in industry-
recognized credentials and employment. The TAACCT program has 
enrolled more than 11,500 veterans through September 30, 2014.

DOL Licensing and Credentialing Demo

    Section 237 of the Veterans' Opportunity to Work to Hire 
Heroes Act of 2011 (VOW Act) required DOL to carry out a 
demonstration project on credentialing ``for the purpose of 
facilitating the seamless transition of members of the Armed 
Forces from service on active duty to civilian employment.'' 
Recognizing that the authority to regulate entry into most 
professions lies with the states, DOL funded the demonstration 
project with the intent to both engage governors in an effort 
to accelerate credentialing and licensing pathways for veterans 
and to move veterans into civilian employment by reducing or 
eliminating barriers to credentials, certifications, or 
licenses requiring similar skills, training, or experience 
within a select number of military occupations. A cost study 
will also examine savings to federal programs, which may be 
achieved when a veteran completes an accelerated pathway 
towards licensure instead of a duplicative training under a 
full-length pathway.
    Through a contract with the National Governors' Association 
(NGA), the Department explored accelerated career pathways for 
servicemembers and veterans in selected high-demand civilian 
occupations, (i.e. truck driving, law enforcement, and 
healthcare support). Working with a panel of experts, NGA 
designed and implemented a demonstration project in six 
participating states: Illinois, Iowa, Minnesota, Nevada, 
Virginia, and Wisconsin.
    During this demonstration NGA identified the following 
challenges regarding state efforts to design, establish, and 
improve strategies for accelerated pathways:

        <bullet> Veterans with equivalent training and 
        experience as licensed civilians may have difficulty 
        providing documentation recognized by civilian 
        licensing boards.
        <bullet> Veterans that experience gaps between their 
        military training and experience and civilian 
        requirements may have to participate in duplicative 
        training to attain relevant civilian licensure and/or 
        certification.
        <bullet> Administrative rules and processes within 
        civilian licensing and credentialing systems may create 
        hurdles for veterans to obtain licensure and/or 
        certification unrelated to their ability to competently 
        provide professional services to the public.

    In turn, the demonstration identified several strategies 
that states may utilize to streamline the licensing and 
certification of veterans, including:

        <bullet> To address documentation challenges, states 
        can license veterans by endorsement, or permit veterans 
        with relevant training to sit for civilian licensure 
        examinations.
        <bullet> To address training gaps, states can work with 
        educational institutions to set up new accelerated 
        programs for veterans that bridge gaps, or provide 
        veterans advanced standing in existing programs.
        <bullet> To address administrative or procedural 
        challenges, states can assess any non-skill related 
        requirements that may disadvantage veterans such as 
        fees or length of experience, or take steps to make 
        civilian employment pathways friendlier to veterans 
        through concerted outreach to both veterans and 
        prospective employers.

    DOL, with the support of NGA, will share the best practices 
identified through the demonstration project in a final report 
that includes a blueprint for other states to follow as well as 
the results of the cost study.

Raising Awareness of Translating Military Skills to Civilian 
Employment

    Under Section 222 of the VOW Act, the Department also 
entered into a contract for a study to identify equivalences 
between the skills developed by members of the Armed Forces 
through various military occupational specialties (MOS) and the 
qualifications required for related positions in the civilian 
workforce.
    The project studied 68 military occupations that engage a 
significant portion of each service's overall population, and 
which represent the occupations of 57 percent of all enlisted 
servicemembers. The study resulted in the creation of a more 
robust military to civilian crosswalk for those 68 MOSs, and 
identified additional information on the nature of the matches 
with regard to rank attained and length of military service. 
The enhanced crosswalk provides numerous additional career 
options for military servicemembers and veterans to consider, 
is integrated in DOL and VA online job search tools for 
veterans, and is available to other web developers. These tools 
also link to information on related civilian certification and 
licensing requirements. The study report was transmitted to 
Congress in September 2014.
    In addition, the Department, together with the Department 
of the Treasury and the Council of Economic Advisers, recently 
released a report which highlights the growth in occupational 
licensing, its effects on the labor market and on 
servicemembers, veterans, and military families in particular, 
and suggests several best practices to improve licensing 
policies.

FY 2016 President's Budget

    The President's FY2016 Budget proposes a number of 
investments that would help veterans overcome transition and 
employment challenges. Among those is a $400 million increase 
to the Wagner-Peyser State Grants to expand the availability of 
intensive, staff-assisted counseling and other reemployment 
services to displaced workers, including veterans. These staff-
assisted services will include the use of workforce and labor 
market information to guide participants in their job search 
and training decisions, as well as other assessment tools and 
resources to assist individuals identify occupations in in-
demand industries.
    The President's Budget also includes a $100 million 
increase for Reemployment Services and Eligibility Assessments 
(RESEA) for Unemployment Insurance (UI) claimants. This $181 
million program would build on the successes of the evidence-
based RESEA initiative. RESEA pairs UI eligibility assessments 
with reemployment services. Under the Budget proposal, RESEA 
would be made available to all transitioning veterans receiving 
Unemployment Compensation for ex-servicemembers in addition to 
the top one-third of UI recipients profiled as most likely to 
exhaust their benefits.
    Additionally, a number of states have taken action in 
recent years to identify and address unnecessary licensing 
barriers. Such steps are critical to ensuring economic 
opportunity and geographic mobility for servicemembers, 
veterans and their families. To encourage even more states to 
follow suit, the President's Budget proposes $15 million to 
support states in these efforts. This would serve to increase 
interstate portability of licenses, reduce or remove other 
unnecessary barriers to employment, and provide easier access 
to high-quality jobs.

Conclusion

    The Department of Labor remains committed to our 
servicemembers and veterans and looks forward to working with 
the Committee to ensure the continued success of our efforts to 
properly recognize the value of military training and 
experience. Thank you again for the opportunity to testify 
today, and I am happy to answer any questions you may have at 
this time.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                             For the Record

    Chairman Wenstrup and Ranking Member Takano:
    Thank you for the opportunity to submit testimony for your 
subcommittee's hearing entitled, ``A Review of Licensing and 
Credentialing Standards for Servicemembers and Veterans: Do 
Barriers Still Remain?''
    The National Council of State Boards of Nursing (NCSBN) is 
an independent, non-profit association comprising 59 boards of 
nursing (BONs) from across the U.S., the District of Columbia 
and four U.S. territories. BONs are responsible for protecting 
the public through regulation of licensure, nursing practice 
and discipline of the 5.2 million registered nurses (RNs), 
licensed practical/vocational (LPN/VNs) and advanced practice 
registered nurses (APRNs) in the U.S. with active licenses, in 
addition to the approval of prelicensure nursing education 
programs in the U.S. NCSBN was created by these boards of 
nursing to act and counsel with one another and to lessen the 
burden of government. The mission of NCSBN is to provide 
education, service and research through collaborative 
leadership to promote evidence-based regulatory excellence for 
patient safety and public protection. Through NCSBN, BONs can 
work together on policy matters that will affect the future of 
nursing and healthcare.
    The 2013 White House report, ``The Fast Track to Civilian 
Employment: Streamlining Credentialing and Licensing for 
Servicemembers, Veterans and Their Spouses'', encourages states 
to support legislative efforts that will transition veterans 
into the civilian workplace. NCSBN wholeheartedly joins these 
efforts valuing the contributions veterans have made in the 
military by acknowledging their training and experience. NCSBN 
supports federal and state legislation that will help veterans 
safely and competently enter civilian careers in nursing.
    Recently, there has been an emphasis placed on 
transitioning military medics, corpsmen and airmen to civilian 
roles as LPN/VNs. NCSBN staff, with consultation from leading 
experts in the areas of nursing and military education, 
conducted an in-depth analysis of the healthcare specialist 
(medic), corpsman and airman curricula, and compared these with 
a standard LPN/VN curriculum. The following are key findings 
and recommendations that will be helpful for policymakers 
introducing legislation related to this topic.
    LPN/VN education is different than the training received by 
healthcare specialists (medics), corpsmen or airmen. NCSBN 
encourages legislation that supports the development of LPN/VN 
bridge programs allowing healthcare specialists (medics), 
corpsmen and airmen to receive credit for the knowledge, 
skills, and abilities they acquired in the military, and 
recommends focusing content on gaps in knowledge, the nursing 
process, and differences between the military and LPN/VN roles 
and scope of practice.
    NCSBN and BONs are working with many groups to address 
different aspects of this project and should be involved in any 
discussions regarding this endeavor so that it can assist in 
assuring that veterans have a safe and smooth transition into a 
career in nursing.
    Additionally, NCSBN has supported the continued inclusion 
of the NCLEX-RN and NCLEX-PN (National Council Licensure 
Examination) to the qualified list of non-federal government 
licensure/certification examinations by the Department of 
Veterans Affairs. The NCLEX is the nationally recognized exam 
taken by RN and LP/VN graduates to ensure every licensed nurse 
has met state education requirements and is competent to 
practice nursing safely. The inclusion of the NCLEX allows for 
eligible veterans and their dependents (as defined by the 
Department of Veterans Affairs) to be reimbursed for the cost 
of test(s) given to qualify an individual for a vocational 
license or certificate. Currently, qualifying veteran 
candidates have no limit as to the number of times the exam can 
be taken.
    NCSBN also strives to offer providers the opportunity to 
practice safely and competently across state lines without 
undue licensure burdens. One way that we have worked to 
facilitate interstate mobility of nurses is through our Nurse 
Licensure Compact (NLC), an interstate compact that allows a 
nurse to have one multistate license (in his or her state of 
residency) that grants the privilege to practice in other NLC 
participating states (both physically and electronically), 
subject to each state's practice laws and regulations. NCSBN 
launched the NLC in 2000 in an effort to expand the mobility of 
nurses as part of our nation's healthcare delivery system. 
Currently, 25 U.S. states have adopted the NLC. That number is 
expected to grow in the coming years as the states begin to 
adopt a newly enhanced version that addresses concerns raised 
by states that have not yet joined.
    In addition to the NLC, we have also developed a compact 
that would facilitate interstate license portability for APRNs, 
who are increasingly delivering primary care and helping with 
chronic disease management via telehealth. The APRN Compact 
maintains most of the same principles as the NLC, including a 
mutual recognition licensing model that would allow an APRN to 
practice in any participating state with just one license.
    BONs under the NLC facilitate interstate cooperation and 
coordination through participation in NCSBN's Nursys program, 
the only national database currently available for verification 
of nurse licensure and discipline for RNs, LPN/VNs and APRNs. 
Nursys allows access to the status of a nurse's license and 
provides information about any history of discipline.
    Ultimately, the NLC and the APRN Compact create the 
necessary legal structure that requires BONs to report and 
share license and discipline information with one another, a 
key component to ensuring nurse competency and patient safety 
across the country.
    NCSBN looks forward to continuing to work with the 
Committee, veterans, and other stakeholders to address issues 
involving veterans and their efforts to become a civilian 
licensed nurse. We appreciate the opportunity to provide 
testimony on this important issue. If you have any questions or 
need any additional information, please do not hesitate to 
contact us. Elliot Vice, NCSBN's Director of Government 
Affairs, can be reached at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6702110e040227090414050949081500">[email&#160;protected]</a> and 202-530-4830. We 
look forward to continuing the dialogue with you on this very 
important issue.
    Sincerely,

    Kathy Apple, MS, RN, FAAN,

    Chief Executive Officer
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    
    
                                 <all>
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
